No. ________

BLAINE MILAM
Petitioner,
V.

TEXAS
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE TEXAS COURT OF CRIMINAL APPEALS

APPENDICES TO PETITION FOR A WRIT OF
CERTIORARI
Mr. Milam is scheduled to be executed on January 21, 2021,
after 6:00 p.m.
Jason D. Hawkins
Federal Public Defender
Jeremy Schepers
Supervisor, Capital Habeas Unit
jeremy_schepers@fd.org
Northern District of Texas
525 S. Griffin Street, Suite 629
Dallas, TX 75202
214-767-2746
214-767-2286 (fax)

CAPITAL CASE

Jennae R. Swiergula*
Texas Defender Service
1023 Springdale Rd. #14E
Austin, TX 78721
512-320-8300
512-477-2153 (fax)
jswiergula@texasdefender.org
*Counsel of Record
Attorneys for Petitioner

INDEX TO APPENDICES
APPENDIX 1

Order, Ex parte Milam, No. WR-79,322-02 (Tex. Crim. App. July
1, 2020)

APPENDIX 2

State’s Proposed Findings of Fact, Conclusions of Law, and Order,
No. CR-09-066 (4th Dist. Ct., Rusk Co., Tex., Sept. 11, 2019)

APPENDIX 3

Order, Ex parte Milam, No. CR-09-066 (4th Dist. Ct., Rusk Co.,
Tex., Oct. 16, 2019)

APPENDIX 4

Letter Pronouncement, No. CR-09-066 (4th Dist. Ct., Rusk Co.,
Tex., June 3, 2019)

APPENDIX 5

Order, Ex parte Milam, No. WR-79,322-02 (Tex. Crim. App. Jan.
14, 2019)

APPENDIX 1

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-79,322-02

EX PARTE BLAINE KEITH MILAM, Applicant

ON APPLICATION FOR POST-CONVICTION WRIT OF HABEAS CORPUS
FROM CAUSE NO. CR-09-066 IN THE 4 TH JUDICIAL DISTRICT COURT
RUSK COUNTY
Per curiam.
ORDER
This is a subsequent application for a writ of habeas corpus filed pursuant to the
provisions of Texas Code of Criminal Procedure Article 11.071, § 5.1
In May 2010, a jury convicted Applicant of capital murder for killing his fiancee’s 13month-old daughter. See T EX. P ENAL C ODE § 19.03(a). The jury answered the special issues
submitted under Article 37.071 of the Texas Code of Criminal Procedure. The jury also

1

All references to “articles” in this order refer to the Texas Code of Criminal Procedure
unless otherwise specified.

Milam–2
answered a special issue asking whether Applicant is a person with intellectual disability.
In accordance with the jury’s answers, the trial court set punishment at death. This Court
affirmed Applicant’s conviction and sentence on direct appeal and denied his initial writ filed
pursuant to Article 11.071. Milam v. State, No. AP-76,379 (Tex. Crim. App. May 23, 2012)
(not designated for publication); Ex parte Milam, No. WR-79,322-01 (Tex. Crim. App. Sept.
11, 2013) (not designated for publication).
On January 7, 2019, Applicant filed this, his first subsequent writ application, in the
trial court. Therein, Applicant raised four claims: (1) current scientific evidence regarding
the reliability of bite mark comparison evidence contradicts expert opinion testimony
presented by the State at Applicant’s trial (Claim 1); (2) Applicant’s execution would violate
the Eighth and Fourteenth Amendments because he is intellectually disabled (Claim 2); the
State violated Applicant’s right to due process by failing to disclose material exculpatory
evidence (Claim 3); and (4) the State obtained Applicant’s conviction in violation of due
process because he was denied his right to present a defense (Claim 4). The trial court
forwarded the record to us for a determination of whether any of Applicant’s subsequent writ
claims satisfied Article 11.071, § 5(a).
We determined that Applicant’s first and second claims satisfied Article 11.071,
§ 5(a)(1) and remanded those allegations to the trial court for a merits review. Ex parte
Milam, No. WR-79,322-02 (Tex. Crim. App. Jan. 14, 2019). The trial court entered findings

Milam–3
of +fact and conclusions of law and recommended that we deny habeas relief on Claims 1
and 2.
We have reviewed the record regarding Applicant’s two remanded allegations. Based
on our review of the record, we find that Applicant is not entitled to habeas relief on either
Claim 1 (his bite mark evidence allegation) or Claim 2 (his intellectual disability allegations).
Further, regarding Claim 1, we do not adopt the trial court’s findings of fact numbers
29 and 33. Regarding Claim 2, we do not adopt conclusions of law numbers 170 through
177, number 183, or the portion of number 239 that states Applicant’s intellectual disability
claim is barred under Teague v. Lane, 489 U.S. 288 (1989).
Based upon the trial court’s findings and conclusions (with the exceptions noted
above) and our own review, we deny relief on Claim 1 and Claim 2 of the application, and
dismiss Claims 3 and 4 as an abuse of the writ.
IT IS SO ORDERED THIS THE 1ST DAY OF JULY, 2020.

Do Not Publish

APPENDIX 2

DISTRICT COURT NO. CR 09-066
(TEXAS COURT OF CRIMINAL APPEALS NO. WR 79,322-02)
Ex parte
BLAINE KEITH MILAM,
Applicant

§
§
§
§
§

IN THE 4TH JUDICIAL
DISTRICT COURT OF
RUSK COUNTY, TEXAS

STATE’S PROPOSED FINDINGS OF FACT,
CONCLUSIONS OF LAW, AND ORDER
The Court, having considered the Applicant’s subsequent application for
writ of habeas corpus, the State’s Amended Response, and official court
documents and records in cause number 09-066, makes the following findings
of fact and conclusions of law:
FINDINGS OF FACT
1.

Applicant, Blaine Keith Milam, was indicted on March 10, 2009,

by the Grand Jury of the 4th Judicial District Court, in cause No. 09-066, on
four counts of the capital offense of knowingly causing the death of Amora Bain
Carson, an individual younger than six years of age. See 1 CR 1-4; 39 RR 4243; 1 Tex. Penal Code § 19.03 (a)(8).

“CR” refers to the Clerk’s Record—the transcript of pleadings and documents
filed with the clerk during trial, preceded by volume number and followed by page
number. “RR” refers to the Reporter’s Record of the transcribed state trial
proceedings.
1

1

2.

After a change of venue, a Montgomery County jury convicted

Applicant of capital murder and sentenced him to death in May 2010. See 41
RR 235-36.
3.

Applicant’s conviction was affirmed on direct appeal on May 23,

2012. Milam v. State, No. AP-76,379, 2012 WL 1868458 (Tex. Crim. App. 2012).
He did not seek certiorari review of this decision, and his conviction became
final on August 21, 2012.
4.

On September 11, 2013, the Texas Court of Criminal Appeals

(CCA) adopted this Court’s—the Honorable J. Clay Gossett’s—recommended
findings of fact and conclusions of law and denied state habeas relief. Ex parte
Milam, No. WR-79,322-01, 2013 WL 4856200 (Tex. Crim. App. 2013).
5.

On August 16, 2017, the United States District Court for the

Eastern District of Texas, Sherman Division, the Honorable Ron Clark
presiding, denied federal habeas relief and a certificate of appealability (COA).
Milam v. Director, TDCJ-CID, No. 4:13-cv-545, 2017 WL 3537272 (E.D. Tex.
2017).
6.

On May 10, 2018, the Fifth Circuit Court of Appeals also denied

COA. Milam v. Davis, 733 F. App’x 781 (5th Cir. 2018).
7.

The United States Supreme Court denied certiorari review on

October 9, 2018. Milam v. Davis, 139 S. Ct. 335 (2018).

2

8.

On September 11, 2018, this Court signed an order setting

Applicant’s execution date for January 15, 2019.
9.

On September 17, 2018, Applicant’s appointed federal habeas

counsel, Don Bailey, filed a motion to substitute counsel. Milam v. Director,
No. 4:13-cv-545 (E.D. Tex.) (ECF No. 40).
10.

The district court granted the motion on October 4, 2018, and

appointed Jennae Swiergula of the Texas Defender Service and Jeremy
Schepers of the Federal Public Defenders Office. Milam v. Director, No. 4:13cv-545 (E.D. Tex.) (ECF Nos. 42-44).
11.

On January 7, 2019, Applicant filed his second state habeas

application and a motion for stay of his execution date.
12.

On January 14, 2019, the CCA granted Applicant’s motion for stay,

concluding he had “met the dictates of [Texas Code of Criminal Procedure]
Article 11.071 § 5(a)(1) with regard to his first two allegations,” stayed his
execution, and remanded these claims to this Court for a review on the merits.
Ex parte Milam, No. WR-79,322-02, 2019 WL 190209 (Tex. Crim. App. 2019).
13.

The State submitted a response pursuant to Article 11.071 § 7, on

May 6, 2019, and an amended response on May 14, 2019.
14.

On June 3, 2019—the twentieth day from the date the Respondent

filed an amended response, see Article 11.071 § 8(a) and § 9(a)—this Court
notified the parties by letter that it “hereby denies Applicant’s State Habeas

3

Application,” and ordered the State “to prepare an order according to this letter
pronouncement.”
15.

The State submitted a proposed order, in accord with the statutory

requirements of Article 11.071 § 8, “FIND[ING] that there are no ‘controverted,
previously unresolved factual issues material to the legality of applicant’s
confinement.’ Accordingly, both parties are ORDERED to provide proposed
findings of fact and conclusions of law within thirty days of the date of this
order.”
16.

The Court signed the order on June 5, 2019.

17.

On June 12, 2019, Applicant filed a motion to recuse Judge Gossett

from proceedings in connection with the adjudication of his writ application.
18.

The State filed its opposition to this motion on June 26, 2019.

19.

Applicant filed a reply on June 27, 2019.

20.

This Court took no action on the motion.

21.

The motion was transferred to the Presiding Judge of the Tenth

Administrative Judicial Region, The Honorable Alphonso Charles, who held a
hearing on the motion on August 2, 2019.
22.

Judge Charles denied the motion on August 12, 2019.

4

FIRST GROUND FOR RELIEF: Applicant claims he is entitled to
relief under Article 11.073 of the Texas Code of Criminal Procedure
because the current relevant scientific evidence related to the
reliability of bitemark comparison evidence contradicts expert
opinion testimony presented and relied upon by the State at trial.
23.

The CCA remanded Applicant’s challenge to the admissibility of

expert testimony on bitemark evidence, raised pursuant to Article 11.073,
concluding that Applicant satisfied the dictates of Article 11.071 § 5(a)(1),
“[b]ecause of recent changes in the science pertaining to bite mark
comparisons.” Ex parte Milam, 2019 WL 190209, at *1.
24.

Applicant proffered the following new evidence relevant to the

science of bitemark comparison testimony: (1) an affidavit from forensic
odontologist Dr. Charles Michael Bowers, Applicant’s Exhibit 11; (2) a report
from the President’s Council of Science and Technology entitled Forensic
Science in Criminal Courts: Ensuring Scientific Validity of FeatureComparison Methods (2016 PCAST Report), Applicant’s Exhibit 12; (3) a report
from the Texas Forensic Science Commission (2016 TFSC Report), Applicant’s
Exhibit 13; (4) The American Board of Forensic Odontology Revised Standards
and Guidelines for Evaluating Bitemarks (ABFO Standards), State’s
Attachment; and (5) Ex parte Chaney, 563 S.W.3d 239 (Tex. Crim. App. Dec.
19, 2018).
25.

For the purposes of Article 11.073, relevant scientific evidence is

unavailable if it “was not ascertainable through the exercise of reasonable

5

diligence by the [applicant] on or before the date on which the original
application or a previously considered application, as applicable, was filed.”
Tex. Code Crim. Proc. art. 11.073(c).
26.

The Court finds that Dr. Bowers’s affidavit, Applicant’s Exhibit 11,

relies on information dating back to 2009, prior to Applicant’s trial. See Bowers
Report Exhibits (listing exhibits from 2009, 2010, & 2011); see also Appl. Exh.
11, at 3 n.5 (It “was already understood at the time of Dr. Williams’s testimony”
that patterns left in material bitten by human teeth are not “unique.”); Appl.
Exh. 11, at 4-5 (at time of trial National Academy of Sciences had criticized
bitemark methodology).
27.

Applicant’s remaining exhibits were created after Applicant’s trial.

28.

Applicant proffers these exhibits to attack the testimony of the

State’s expert, forensic odontologist Dr. Robert Williams, for purportedly
suggesting that human dentition is unique, and human skin is capable of
recording a person’s biting surface with sufficient fidelity to allow comparisons
to be made between the injury and molds of human dentitions, Subsequent
Application at 47, 55-57; and for using now-foreclosed terms, “match” and “to
a reasonable degree of dental certainty,” Subsequent Application at 58-59.
29.

The Court finds that Dr. Williams testified that in the context of

bitemark analysis, bitemark dentition is not unique as to the general
population, and that someone in the State of Texas might have a similar

6

dentition to Applicant’s and might make a mark similar to Applicant’s
dentition. But, within the limited population Dr. Williams was asked to
analyze—dentitions of Applicant, Jesseca Carson, and Danny Milam—
Applicant’s dentition was extremely unique. See 44 RR 255.
30.

Applicant does not challenge the credibility of defense expert Dr.

George Isaac’s testimony.
31.

Dr. Isaac testified that teeth patterns are not unique. 47 RR 33-35,

32.

Both experts testified that the number of potential human

52.

bitemarks submitted for examination in this case—twenty-four—was unusual,
and neither expert was aware of another case involving this many bitemarks
on one victim. See 44 RR 232-33; 45 RR 35-37; 47 RR 68.
33.

In this context, the Court finds Dr. Williams used the word

“unique” to describe a pattern he recognized across many of these twenty-four
bitemark injuries—the distinctive “M” pattern and the petechial pinpoint
lacerations—that corresponded with one of the dentition models (Applicant’s)
but not the others. See 44 RR 236-49, 261-68, 273, 284-85; 45 RR 7, 19-20.
34.

Dr. Isaac also noticed the “M” pattern in many of the bitemarks.

See 47 RR 17, 21, 23-30, 35, 39, 41, 51, 54, 64-67.
35.

The Court finds Dr. Williams acknowledged that human skin is an

imperfect medium for accurately recording dentitions in the following ways:

7

(a) he explained that the teeth impressions can be affected by the amount of
fat a person has under their skin, and the age of the skin, 44 RR 205-08; (b) he
noted the variability of skin, and specifically noted that skin thickness and
underlying fat layers on a baby should be considered, as well as different skin
consistencies and thickness, 44 RR 238, 246, 263; (c) he testified that bitemarks
are not an ink-stamp, that movement of the victim will result in distortion and
torqueing of the tissues, and the skin can occasionally show drag marks from
the teeth, 44 RR 262; and (d) he agreed that skin was “a lousy medium.” 45 RR
63-64. The defense also cross-examined Dr. Williams on this point. 45 RR 4448.
36.

Dr. Isaac testified there was “plenty of room for error” in bitemark

analysis because of problems with the skin—it’s “not the best medium” to
record an impression. 47 RR 10; see also 47 RR 37 (skin distorts and is pliable).
37.

The Court finds that the current ABFO Manual allows an ABFO

Diplomate to conclude only that an individual is “Excluded as Having Made
the Bitemark,” “Not Excluded as Having Made the Bitemark,” or
“Inconclusive.” See Ex parte Chaney, 563 S.W.3d at 257. In making this
determination, the ABFO requires an odontologist to (1) determine whether
the pattern injury is a human bitemark; (2) determine whether there exists
sufficient evidentiary value for comparison; (3) compare the pattern injury to
a subject dentition and determine whether (a) dentition is excluded as having

8

made the bitemark, (b) dentition is not excluded as having made the bitemark,
or (c) the outcome is inconclusive; and (4) seek independent verification
through a second opinion. See State’s Attachment, at 17; see also Ex parte
Chaney, 563 S.W.3d at 257.
38.

The ABFO also recommends that a different dentist collect the

dentition samples for examination and produce a “dental line-up” if only one
person of interest is proffered. State’s Attachment at 2, 7, 11.
39.

Dr. Williams and Dr. Isaac were given three dental models, made

by another dentist, to compare to the numerous bitemarks found on Amora’s
body. Dr. Williams referred to all three dental models as “suspects.” 44 RR 22224, 230.
40.

Dr. Williams identified which bitemarks exhibited the unique class

characteristics of a human bitemark, and, of those, which ones had evidentiary
value. 44 RR 232-47, 260-61.
41.

Dr. Williams compared the dentition models to those bitemarks

with evidentiary value.
42.

Dr. Williams testified that he excluded Jesseca Carson and Danny

Milam as the contributor of the bitemark on the left knee but could not exclude
Applicant. 44 RR 247-55. Applicant could not be excluded from the bitemark
on the right knee, 44 RR 256-60; the upper left tricep, lower inner left forearm,
and backside waist, 44 RR 261-66; 45 RR 9-11, 14-17. Jesseca was excluded

9

from the mark on the left forearm. 45 RR 15-16. Applicant could not be
excluded from contributing the bitemark to the upper right bicep, but Jesseca
and Danny could be excluded. 44 RR 266-69; 45 RR 12-14. Amora’s lower right
forearm showed a constellation of three bitemarks, all of which, Dr. Williams
testified, were generated by the same person, and Applicant could not be
eliminated as that person, 45 RR 6-8; and Applicant also could not be excluded
as a contributor of the bitemark on the upper left leg, 44 RR 272-74, or the two
bitemarks on the upper right chest, 44 RR 274-76. The bitemark to the inside
of Amora’s left hand had limited evidentiary value, but Applicant could not be
excluded as the contributor. 44 RR 269-72.
43.

Dr. Williams testified that he was not sure that the mark on

Amora’s chin was actually a bitemark because it only showed what appeared
to be lower dentition with no corresponding upper; but, because it exhibited
characteristics of a bitemark pattern, he compared it to Jesseca and Applicant,
and excluded Applicant but could not exclude Jesseca as a contributor. 44 RR
281-85; 45 RR 6, 57.
44.

In conclusion, Dr. Williams testified that, based upon the quality

of the aforementioned-bitemarks and the uniqueness of Applicant’s dentition,
as compared to Jesseca’s and Danny’s dentition, Dr. Williams could not exclude
Applicant as having contributed these bitemarks—save the one to Amora’s
chin. 45 RR 24, 27.

10

45.

The Court also finds that, after identifying the marks Applicant

could be excluded or not excluded from, Dr. Williams used now-improper
terminology for some of the bitemarks. See 45 RR 20-23, 27 (bitemark to throat
was “unique” and “matched” Applicant to “a reasonable degree of dental
certainty”); 45 RR 19-20 (An injury to bottom of Amora’s left foot appeared to
“match” Applicant’s teeth because it exhibited the same “M” pattern); 45 RR
25-33, 72 (concluding to a reasonable degree of dental certainty, that the
bitemarks on Amora’s throat, upper left arm, upper right arm, one of the marks
on her chest, left forearm, the left knee, the right knee, and bottom of the left
foot, “matched” with Applicant, and to the exclusion of the Jesseca and Danny);
see also Ex parte Chaney, 563 S.W.3d at 260-61 (noting that ABFO Manual no
longer allows examiners to give opinions to a “reasonable degree of dental
certainty” or individualization, i.e. “match”).
46.

The Court finds that Dr. Isaac corrected the State’s use of “match,”

explaining that “match” was not a good term to use; rather, he stated, the
marks are “consistent.” 47 RR 55.
47.

Dr. Isaac refused to use the terminology, “to a reasonable degree

of dental certainty,” indicating that those standards described by Dr. Williams
had been changed, and that he never elevated his opinion to such a high degree
because there was too much room for error in bitemark analysis. 47 RR 55.

11

48.

Dr. Isaac testified there were only five bitemarks of evidentiary

value. Of those five, he could not exclude Applicant as a contributor in four
bitemarks, and he could not exclude Jesseca as a contributor in three of the
bitemarks—one of which he excluded Applicant but not Jesseca—and could not
exclude Danny as a contributor of one. 47 RR 29-30, 35-43, 55-56.
49.

Dr. Isaac concluded, based upon the models he was given, he could

not exclude Applicant as having bitten Amora at least twice: the bitemark to
Amora’s throat and left knee exhibited the same “M” pattern as was exhibited
in Applicant’s dentition. 47 RR 64-67; see also 47 RR 29-30, 51-52.
50.

Dr. Isaac admitted that regarding the bitemarks he felt had no

evidentiary value, Dr. Williams did not attribute them to Applicant. 47 RR 50.
51.

Dr. Isaac also noted the “M” pattern, identified by Dr. Williams, as

the pattern he was looking for in the bitemarks. 47 RR 17, 21, 23-30, 35, 39,
41, 51, 54, 64-67.
52.

Dr. Isaac found the bitemark to the left knee to be a very good

bitemark for the purposes of examination, and he agreed with Dr. Williams
that Applicant could not be excluded as the source of that mark but Jesseca
and Danny could be excluded. 47 RR 29-30, 51-52.
53.

Dr. Isaac admitted that the bitemark to Amora’s throat exhibited

the “M” pattern and was as good as the mark to her left knee. 47 RR 64-67.

12

54.

Dr. Isaac could not exclude Applicant and Jesseca from having

committed the crime together. 47 RR 67.
55.

The Court finds that neither Applicant nor Dr. Bowers challenge

the credibility of Dr. Isaac’s testimony.
56.

Dr. Williams consulted with Dr. Peter Loomis, the chief forensic

odontologist for the New Mexico Office of the Medical Investigator, who agreed
with Dr. Williams’s findings. 45 RR 34-35.
57.

The Court finds that admissible expert testimony from Dr.

Williams and Dr. Isaac, confirmed on peer-review by Dr. Loomis, indicated
Applicant could not excluded as a contributor of at least two of the twenty-four
bitemarks.
58.

The Court finds that, from the following evidence, only Applicant

and Jesseca were with Amora at the time of her murder:
a.

Amora’s body was found in Applicant’s home on December 2,

b.

Applicant, Jesseca, and Amora were the only people home on

2008;

the evening of December 1, 2008, the night before Amora’s body was
discovered. 44 RR 138-40.
c.

On the evening of December 1, 2008, Shirley Milam was

visiting her daughter in Louisiana, and Danny Milam was in jail until the

13

evening of December 1st, after which he drove to Louisiana and spent the night
with his sister and mother. 44 RR 139-40.
d.

Applicant and Jesseca were seen with Amora at 9 p.m. on

December 1, 2008. 46 RR 96.
e.

Applicant called his sister before 9:30 a.m. on December 2,

2008, to tell her Amora was dead. 40 RR 180-82.
f.
59.

No other person has been implicated.

The Court finds that Applicant and Jesseca took steps to cover up

their involvement in Amora’s murder:
a.

Despite calling his sister at 9:30 a.m., Applicant did not call

911 to report Amora’s death until after 10:37 a.m. on December 2, 2008. 42 RR
103-15.
b.

Prior to calling 911, Applicant and Jesseca went to a pawn

shop, 42 RR 57-61; staged a crime scene, 46 RR 180-83; and came up with a
now-discredited alibi, 40 RR 113-23.
c.

Applicant

told

different

versions

of

the

events

to

investigators. See State’s Exhibit (SX) 15 at 26-30, 33, 49.
60.

The Court finds Applicant confessed to jail nurse, Shirley Broyles:

“I’m going to confess. I did it. But Ms. Shirley, the Blaine you know did not do
this. . . . My dad told me to be a man, and I’ve been reading my Bible. Please
tell Jesseca I love her.” 40 RR 161-66.

14

61.

In

closing

argument,

the

State

called

this

confession

“monumental,” 48 RR 35-36, “unequivocal,” and “a perfect gold standard
confession,” 48 RR 151.
62.

The Court finds that forensic testing of the clothing Applicant was

wearing after discovery of Amora’s body revealed:
a.

The entire inside of Applicant’s shirt, the entire inside of his

underwear, several spots on his jeans, the entire outside of one sock and part
of the other, and Applicant’s entire jacket all tested presumptively positive for
the presence of blood. 43 RR 39-42.
b.

Amora’s DNA was found on samples taken from Applicant’s

shirt, 43 RR 116-19, and from the jeans he was wearing, 43 RR 119-20.
63.

Jesseca’s bra, shoes, shirt, pants, and jacket also tested

presumptively positive for trace levels of blood. 43 RR 33-39.
64.

The Court finds that the jeans Applicant was observed wearing

prior to the discovery of Amora’s body were too large and did not fit him. 42 RR
75-76.
65.

Applicant’s weight was known to fluctuate. 39 RR 157; 44 RR 141-

66.

A smaller-sized pair of bloodstained jeans were found discarded in

42.

the room in which Amora was murdered. See 42 RR 201-04, 229-30; 43 RR 7375, 130-31; 48 RR 28-29.

15

a.

The bloodstain on the smaller-sized jeans was described as

“rather large,” 46 RR 177-78; see also 44 RR 129 (“Nothing involved in this case
had as much [bloodstain] as that pair of pants.”); and
b.
67.

primarily confined to the lap-area of the jeans, 43 RR 75.

Crime scene investigator Noel Martin collected the jeans because:
a.

the jeans had stains “consistent with contact transfer

bloodstains,” a blood-spatter term of art meaning that “a bloodstain or a bloodsoaked object which contained liquid blood on it at the time came in contact
with the blue jeans, transferring blood to the surface of the jean.” 42 RR 203204, 229-30 (“[A] bloodied object come into contact with these jeans[.]”); 46 RR
177-78 (“contact transfer” from “direct contact with a blood object”); and
b.

Martin agreed, the “blood-soaked object” in question could

have been a child, 42 RR 204; and
c.

Martin expected to find Amora’s blood on the jeans, 46 RR

178.
68.

DNA testing of a sample from the bloodstain on the smaller-sized

jeans matched Amora. 43 RR 130-31.
69.

The Court finds that Jesseca was observed wearing the same

clothing the night before and the morning after Amora’s murder. See 48 RR 2728. No witness testified to seeing Jesseca wearing jeans similar to the bloodsoaked jeans.

16

70.

No witness testified that the blood-soaked jeans were used to mop

up blood.
71.

The Court finds that, while Applicant was in jail, he directed his

sister to remove evidence from under the house.
72.

Applicant’s sister testified that he asked her to retrieve a blue

cellphone, 40 RR 172-74, 185-87, 195-200; 52 RR 104; but no cellphone was
found under the house.
73.

The Court finds that police searched under the house after

learning of Applicant’s request to his sister and found under the house a pipewrench in a plastic bag that had been shoved through a hole in the floor of the
master bathroom. 40 RR 204-07; 41 RR 28-29; 44 RR 49-50.
74.

Forensic analysis revealed the components of Astroglide present

on the pipe-wrench, 44 RR 153-54, 159-60; but no blood was detected on the
wrench, and no DNA profile was obtained from the samples collected, 43 RR
50-52, 131.
75.

The Court finds that silicone-based oil like that used in Astroglide

is not water-soluble and would not wash off completely if put in water, while
blood and DNA could wash off in water, 43 RR 174; 44 RR 166-67.
76.

A bottle of Astroglide, baby wipes, and a blood-stained diaper were

all found in the room where Amora was murdered; the components of
Astroglide were found on the baby wipes and diaper.

17

77.

The components of Astroglide were found on the diaper Amora was

wearing when her body was found. 40 RR 185-87, 195-200, 204-07; 44 RR 4950, 151-66.
78.

The diaper Amora was wearing was removed during the autopsy.

41 RR 190.
79.

The autopsy revealed that Amora’s vagina and rectum were torn

to such an extent that there appeared to be one large opening instead of two,
and the injury perforated internally and extended into her body cavity. 41 RR
191-92. The medical examiner stated the injury was so severe, he had never
seen anything like it, 41 RR 191-92, and it was likely caused by the insertion
of an object other than a penis hours before Amora died, 41 RR 193-96.
80.

The Court finds that DNA swabs were taken from the bitemarks

on Amora’s body:
a.

Neither Applicant nor Jesseca could be excluded as a

contributor of the DNA on four of the swabbed samples. 43 RR 133-38.
b.

On one of those samples taken from Amora’s left elbow, the

majority of the genetic markers corresponded to Applicant with a statistical
probability of 1 in 27,000 Caucasians, 1 in 43,600 African-Americans, and 1 in
47,200 Hispanics. 43 RR 136-137, 183-86.

18

c.

Jesseca also could not be excluded, but the probability of her

being a contributor was much less—1 in 123 Caucasians, 1 in 72 AfricanAmericans, and 1 in 105 Hispanics. 43 RR 137.
SECOND GROUND FOR RELIEF: Applicant contends his
execution would violate the Eighth and Fourteenth Amendments
because he is intellectually disabled.
81.

During Applicant’s trial, he presented evidence that he was

intellectually disabled and asked the jury to answer a special issue accordingly,
thus finding him ineligible for the death penalty.
82.

The jury answered the special issue, “Do you find, by a

preponderance of the evidence, that the defendant, Blaine Keith Milam, is a
person with [intellectual disability]?” negatively, and Applicant was sentenced
to death. See 4 CR 985-88; 56 RR 167-69.
83.

Applicant did not seek review of the jury’s decision on direct appeal

and did not raise a claim pursuant to Atkins v. Virginia, 536 U.S. 304 (2002),
during state habeas review.
84.

In his subsequent writ, filed days before his scheduled execution,

Applicant argued for the first time that, pursuant to Atkins, his execution
would violate the Eighth and Fourteenth Amendments because he is
intellectually disabled. Subsequent Application at 78-122.
85.

With his subsequent writ, Applicant offered new evidence in

support of his intellectual disability claim: (1) a declaration from Dr. Jack

19

Fletcher, who reevaluated evidence from trial and conducted a new assessment
of adaptive behavior (Application Exhibit 18); (2) an unsworn declaration from
Dr. Dale Watson, who also reevaluated evidence from trial (Application Exhibit
19); (3) a declaration from Dr. John Gregory Olley, who reevaluated the
evidence from trial (Application Exhibit 20); (4) an affidavit and report from
Dr. Gripon, an expert hired by the State but not called at trial (Application
Exhibits 1 and 2); (5) an affidavit from Juanita Bradford (Application Exhibit
3); (6) an affidavit from Kimberly Graham (Application Exhibit 5); (7) an
affidavit from Milton Bennet (Application Exhibit 14); (8) an affidavit from
James Wallace (Application Exhibit 15); (9) and an affidavit from Carolyn
McIlhenny (Application Exhibit 4), who testified at Applicant’s trial.
86.

The CCA granted a stay and remanded this claim, pursuant to

Article 11.071 § 5(a)(1), because of “recent changes in the law pertaining to the
issue of intellectual disability,” namely, Moore v. Texas, 137 S. Ct. 1039 (2017)
(Moore I), and Hall v. Florida, 572 U.S. 701 (2014). Ex parte Milam, 2019 WL
190209, at *1.
87.

Following the remand, the Supreme Court decided Moore v. Texas,

139 S. Ct. 666 (2019) (Moore II), reversing Ex parte Moore II, 548 S.W.3d 552
(Tex. Crim. App. 2018), and remanding to the CCA, concluding that the
decision “rests upon analysis too much of which too closely resembles what we
previously found improper [in Moore I].” 139 S. Ct. at 672. Although not part

20

of the CCA’s remand in this case, the Respondent has addressed the
applicability of the Supreme Court’s subsequent decision in Moore II.
88.

The CCA did not find that Applicant met the requirements of

Article 11.071 § 5(a)(3), with his argument that, but for a constitutional
violation, no rational juror could have sentenced him to death.
A.

Facts pertaining to the applicability of Teague v. Lane, 489
U.S. 288 (1989).

89.

The CCA affirmed Applicant’s conviction on direct appeal on May

23, 2012, see Milam v. State, 2012 WL 1868458; thus, his conviction became
final on August 21, 2012, “when [the] time for filing a petition for certiorari
expired.” Lambrix v. Singletary, 520 U.S. 518, 527 (1997).
90.

Hall was decided May 27, 2014; Moore I was decided on March 28,

2017; and Moore II was decided on February 19, 2019.
B.

Facts pertaining to the applicability of Moore I, Moore II,
and Hall.

91.

The CCA has adopted the Diagnostic and Statistical Manual of

Mental Disorders, Fifth Edition’s (DSM-V) three-pronged criteria for finding
intellectual disability: (A) deficits in general mental abilities, (B) impairment
in everyday adaptive functioning, in comparison to an individual’s age-,
gender-, and socioculturally-matched peers, and (C) onset during the
developmental period. Ex parte Moore II, 548 S.W.3d at 560.

21

92.

Applicant’s jury was similarly instructed, 4 CR 980; 56 RR 4-12;

although the Fourth Edition (DSM-IV) was in use at the time of his trial.
93.

The Court finds that expert testing by both parties in preparation

for trial generated IQ scores of a 68 and 71 on the WAIS-IV, an 80 on the
Stanford-Binet IQ, and an 80 on the RIAS. See 53 RR 200-02; 55 RR 135-37,
140-41, 149-55.
94.

The Court finds that the State’s expert, Dr. Proctor, acknowledged

and discussed all four of Applicant’s IQ scores, explaining the application of
the standard error of measurement (SEM), and noting that any score could be
lower or higher because of the SEM; he found that the scores placed Applicant
in the borderline range. See 55 RR 149-67, 199-203. And, relying on the DSMIV, Dr. Proctor admitted that even the score of 80 would still fall within the
borderline range for diagnostic purposes. 55 RR 154.
95.

Dr. Proctor ultimately opined that, given the SEM, Applicant was

someone with below average intellectual functioning, in the borderline range
of intellectual disability, but not someone with significantly sub-average
intellectual functioning. 55 RR 149-50, 160-65.
96.

The Court finds Dr. Proctor based his ultimate opinion on factors

other than just IQ scores, including the fact that, despite having only a fourthgrade education, Applicant’s reading comprehension test score put him in an
eighth-grade range, while a person with intellectual disability could score, at

22

most, at a sixth-grade range. 55 RR 162-64; see 53 RR 266-67 (Dr. Cunningham
confirmed).
97.

The Court finds that Dr. Proctor did not encourage the jury to stop

deliberating based on his opinion on intellectual functioning but encouraged
them to consider adaptive functioning. Dr. Proctor told the jury:
a.

“it’s not just about how you score on an IQ test, it’s also about

how you function in the world.” 56 RR 167;
b.

because the SEM could put many scores in a “borderline”

range, falling five points higher or lower, such was “a good demonstration of
why the standard for meeting the definition” of intellectual disability was not
based just on testing, but “on multiple pieces of information,” and the score was
just one of those pieces of information. 55 RR 149-50; and
c.

because of the SEM, “we want to look at not only the scores,

we also want to look at the adaptive functioning.” 55 RR 202.
98.

The jury also heard defense expert Dr. Cunningham’s opinion that

Applicant did satisfy the sub-average-intellectual-functioning factor:
a.

Dr. Cunningham explained that a finding of intellectual

disability entails two aspects: IQ and adaptive functioning. 53 RR 197-98.
b.

He explained what an IQ score was, and that a score falls

within the zone of intellectual disability eligibility if the score falls at 70 or
below. 53 RR 198-99; 248.

23

c.

He explained that, given the inherent inaccuracy involved in

IQ testing, a SEM applies, increasing that number to 75 or below, 53 RR 198203, 208-11, 245-46, and any discrepancy in IQ scores could be the result of
variability due to the SEM, 53 RR 254.
d.

He discredited the reliability of Applicant’s higher IQ scores.

53 RR 197-203, 257-58; 54 RR 139-42.
99.

During closing argument, both parties argued all three factors of

the intellectual disability test. See 56 RR 59-73, 106-08 (defense); 56 RR 40-44,
131-38 (State). No party focused on only one factor or encouraged the jury to
stop deliberating if they failed to find sub-average intellectual functioning.
100. The jury charge instructed the jury that, to answer “yes” to the
intellectual disability special issue, they must find all three factors, and
defined the terms “mental retardation,” “significantly sub-average general
intellectual functioning,” and “adaptive behavior.” 4 CR 980-81; 56 RR 8.
101. The Court finds that no expert discussed the now-foreclosed
Briseno 1 factors in Applicant’s trial, and the jury was never instructed to apply
the Briseno factors. See Milam v. Director, 2017 WL 3537272, at *13 (After
considering sua sponte if jury charge was constitutional in light of Moore I,

1

Ex parte Briseno, 135 S.W.3d 1 (Tex. Crim. App. 2004)

24

district court held, “jury charge in this case did not include any of the seven
additional ‘Briseno’ factors, and comports with constitutional standards.”).
102. The Court finds that Dr. Cunningham’s testimony in Applicant’s
trial clearly conveyed a full explanation of the concept of intellectual disability:
a.

Dr. Cunningham explained that a finding of mental

deficiency entails two aspects: IQ and adaptive functioning.
b.

He explained the meaning of IQ score, that a score falls

within the zone of intellectual disability eligibility if it falls at 70 or below, and
the necessary application of the SEM. See Finding of Fact 98; 53 RR 197-203,
208-11, 245-48, 254.
c.

He

described

adaptive

functioning

as

the

practical

expression of one’s intellectual capability. 53 RR 203.
d.

He described the diagnostic criteria set forth in the DSM-

IV—the applicable standard at the time—explaining the eleven different areas
of adaptive functioning and the requirement that, to find someone
intellectually disabled, they must have significant deficits in at least two or
more of these eleven areas. 53 RR 203-04. Those eleven areas are: functional
academic skills, communication, social interpersonal skills, self-care, home
living, use of community resources, self-direction, work, leisure, health, and
safety. 53 RR 203, 250-61.

25

e.

He identified the diagnostic criteria set forth by the

American Association on Intellectual and Developmental Disabilities
(AAIDD), which identified a broader set of criterial for adaptive skills:
(1) conceptual skills, including language, reading and writing, money, time,
and number concepts; (2) social skills, including interpersonal skills, social
responsibility, self-esteem, gullibility, naivete, follows the rules, avoids being
victimized, and social problem solving; and (3) practical skills, including
personal care, occupational skills, use of money, safety, health, health care,
travel, use of transportation, and use of the telephone. 53 RR 204-05.
f.

He reiterated that the jury need not find deficits in all areas;

the jury need only find deficits in two areas described by the DSM-IV, and one
area described by the AAIDD. 53 RR 205-06, 260-61.
g.

He explained that the diagnosis is based upon deficits, not

strengths, and a person could perform well in one area but still be classified as
intellectually disabled. 53 RR 205-06. If a person has significantly sub-average
IQ scores below 70, and deficits in two areas of adaptive functioning (as
described by DSM-IV), a diagnosis of intellectual disability will not be ruled
out by the presence of strengths in all other areas. 53 RR 206.
103. Dr. Proctor agreed with Dr. Cunningham’s explanation of adaptive
functioning. See 55 RR 167 (stating Dr. Cunningham explained this concept
correctly).

26

104. Applicant cites to the following questions by the State which he
believes invoke the Briseno factors without mentioning them:
a.

The questioning of teachers and family regarding whether

Applicant was ever considered for or diagnosed with an intellectual disability,
Subsequent Application at 115;
b.

The questioning of lay-witnesses on whether Applicant was

dominant in his relationship, Subsequent Application at 114;
c.

The questioning of expert Dr. Cunningham on whether he

knew Applicant lied to a police officer, Subsequent Application at 116 (citing
54 RR 168); and
d.

The questioning of five witnesses regarding whether

Applicant conducted himself appropriately at school, work, or around other
children, Subsequent Application at 116.
105. Applicant did not object to any of this questioning at trial.
106. The Court finds that Applicant underwent a full and individual
evaluation by the school special education department in 2000, but the only
diagnosis listed on Applicant’s evaluation was speech impediment; he was not
referred for any other services, and the evaluators did not identify him as
someone with an intellectual deficit. See 54 RR 321-23; 55 RR 179.
107. The Court finds the fact that Applicant was evaluated by the
special education department during his developmental years, but not

27

diagnosed or referred for services, to be relevant to the jury’s determination on
all three factors of the intellectual disability test, especially onset before the
age of eighteen.
108.

The Court finds that many of Applicant’s special education

records were destroyed per district policy. 54 RR 323-24.
109. The Court finds that a referral for special education testing is
something family and teachers might have knowledge of and might know the
purpose for which he was referred.
110. The Court finds that questions regarding Applicant’s relationships
are related to the DSM and AAIDD criteria for adaptive deficits identified by
Dr. Cunningham, such as social interpersonal skills, or whether he has deficits
in social skills, including interpersonal skills, self-esteem, gullibility, naivete,
or victimization avoidance. See 53 RR 204-05.
111. The Court also finds that Applicant presented evidence at both the
guilt-innocence and punishment phases, portraying Jesseca as more
sophisticated than Applicant, and the likely instigator, if not perpetrator, of
this murder. See 40 RR 30-32 (describing the dramatic change in Jesseca’s
demeanor—from grieving to matter-of-fact—once police started questioning
her); 41 RR 77-81 (cross-examination of pawn-shop owner suggested Jesseca
was agitated with Applicant, and anxious to complete the business
transaction); 46 RR 209-10 (Lisa Taylor testified Jesseca appeared in charge of

28

the relationship); 48 RR 85 (guilt-innocence closing arguments describing
differences between Jesseca—high school graduate and attractive—and
Applicant—fourth-grade education, first girlfriend); 48 RR 105 (closing
argument suggesting Jesseca convinced Applicant to bite baby); 51 RR 271,
281-82 (punishment phase testimony that Applicant never had a date before
Jesseca); 51 RR 312 (Jesseca was headstrong, insisted on going to Alabama
and confronting her mother); 51 RR 317 (Jesseca was angry with Applicant for
wanting to leave Alabama, called him a “wuss”); 52 RR 100 (Applicant’s sister
saw Jesseca in November; Jesseca would not let Applicant leave her side,
looked mad, and would not let him be alone with sister); 52 RR 102 (Applicant
loved Jesseca, would do anything for her); 56 RR 82 (punishment closing
arguments: Applicant’s mental deficiency, youth, and drug abuse, combined
with Jesseca’s state of mind led to death); 56 RR 87-89 (comparing Applicant’s
below-average intelligence with Jesseca’s greater intelligence and sick mind);
56 RR 104-05 (but for Jesseca’s power over Applicant, this crime would not
have happened).
112. The Court finds that the State presented evidence during both
guilt-innocence and punishment to rebut the defensive claim that Jesseca was
more sophisticated and in control of the relationship. See 39 RR 108-09
(Amora’s aunt said Applicant appeared to be calling the shots); 46 RR 73
(Jesseca was acting submissive and meek in November); 50 RR 37 (Applicant’s

29

boss, Bryan Perkins, testified Applicant appeared to be dominant one in
relationship); 50 RR 115 (Jesseca’s friend Crystal Zapata testified Applicant
was the dominant one in the relationship).
113. The Court finds that questions directed to Dr. Cunningham
regarding his knowledge of whether Applicant lied to a police officer, 54 RR
168, were relevant to Dr. Cunningham’s expert opinion on adaptive behaviors,
see Moore II, 139 S. Ct. at 672 (acknowledging that clinicians ask questions
similar to the CCA’s Briseno-related statements that may be relevant, and
citing to AAIDD-11, at 44, “noting that how a person ‘follows rules’ and ‘obeys
laws’ can bear on assessment of her social skills”); as well as to his opinion on
whether Applicant was malingering. The testimony is also relevant to the
jury’s determination of the future-danger and mitigation special issues, and
Applicant’s culpability as a party to the murder.
114. The Court finds that the State questioned witnesses Nelda
Thornton, 51 RR 18-19, 23; Carolyn McIlhenny, 51 RR 37; Melanie Dolive, 54
RR 297; Sherry Brown 54 RR 315; and Melynda Keenon, 55 RR 83, regarding
Applicant’s ability to conduct himself appropriately at school, work, or around
other children.
115. The Court finds that all five witnesses were educators, and that
witnesses Thornton and McIlhenny were Applicant’s grade-school teachers, 51
RR 5-10, 24-27; witness Brown was a teacher who interacted with Applicant in

30

small group settings, 54 RR 313-14; and witness Dolive was a special education
teacher who knew Applicant, 54 RR 294-97; while witness Keenon was
Applicant’s cousin who homeschooled her own children and assisted
Applicant’s mother in her efforts to homeschool Applicant, 55 RR 81-83.
116. The Court finds that Dr. Proctor concluded that Applicant has both
deficits and strengths but does not have significant deficits in adaptive
behavior at the level required for intellectual disability. 55 RR 177, 256-57.
117. The Court finds that Dr. Proctor disagreed with Dr. Cunningham’s
adaptive-deficits opinion on the following grounds:
a.

Dr.

Proctor

disagreed

with

Dr.

Cunningham’s

administration of the Adaptive Behavior Scale, Residential and Community,
because it did not compare Applicant to a normal population, but rather to a
group of developmentally-disabled people living in the community. 55 RR 17172. Applicant’s subsequent writ expert, Dr. Olley also stated that the Adaptive
Behavior Scale was “a poor choice.” Appl. Exh. 20, at 10.
b.

Dr. Proctor disagreed with Dr. Cunningham’s reliance upon

Applicant’s mother, Shirley, as a source of information because Dr. Proctor
observed that she deliberately tried to portray Applicant as “slow,” and openly
encouraged Applicant’s sister, Teresa, to do so as well. 55 RR 172-76.
c.

Because Dr. Proctor did not place much weight on Shirley’s

or Teresa’s testimony, he disagreed with the accuracy of Dr. Cunningham’s

31

assessment, relying on their input, that Applicant was like a three- or fouryear-old in seven of the ten adaptive behavior areas. 55 RR 176.
d.

Dr. Proctor found Dr. Cunningham’s determination that

Applicant fell into the realm of a three-year-old in the category of work
questionable given the trial testimony regarding Applicant’s work history and
vocational ability. 55 RR 176-77, 255-57.
118. Dr. Proctor testified that Applicant’s lack of formal education and
limited opportunities for socializing could explain Applicant’s low intellectual
functioning. 55 RR 210-12.
119. Dr. Proctor’s opinion that Applicant’s low intellectual functioning
could be a product of his lack of formal education and limited socialization
opportunities rather than intellectual disability was supported by the record:
a.

Applicant did not drop out or fail out of school because of any

“risk factor,” see Moore I, 137 S. Ct. at 1051 (identifying childhood abuse and
suffering as “risk factors”); but was removed from school in the fourth grade by
his parents because they disagreed with the principal’s punishment of
Applicant. 51 RR 237-40; 53 RR 12.
b.

Applicant’s parents ceased efforts to homeschool him after

six months, and he had limited opportunities for socialization at home. 51 RR
237-40; 53 RR 12.

32

c.

Two adults who attempted to assist with homeschooling

Applicant said he could do whatever work they put in front of him, see 55 RR
78-84, 89-98, 117-18, 121.
d.

Two of Applicant’s grade school teachers, who testified on his

behalf at trial, said Applicant was a slow student with low grades, but that he
was frequently absent due to health issues and an overprotective mother, 51
RR 9, 14, 26-27.
e.

One of those teachers said Applicant could have been a

better student if he had attended school regularly, 51 RR 32-33, 35.
f.

A friend confirmed that Applicant was educationally slow

because he had been pulled out of school in the fourth grade. 53 RR 12.
g.

Applicant’s reading comprehension scores were in the

eighth-grade range, although his education ended at fourth grade, and persons
with mild mental retardation can read at most at a sixth-grade level. 55 RR
162-64; see also 53 RR 266-67.
120. The jury alternatively heard Dr. Cunningham’s testimony
regarding possible “adverse developmental factors” in Applicant’s background
that could have led to intellectual disability and to the commission of this
crime, including his mother’s pregnancy complications, childhood illness,
physical imperfections, youthfulness at time of offense, predisposition to
substance abuse and dependence, removal from school and social isolation,

33

father’s illness, multigenerational family dysfunction, traumatic sexual
exposure, alcohol and drug abuse and dependency, premature family
responsibilities, father’s death, and Jesseca’s psychosis. See 53 RR 273-347.
C.

Facts applicable to the substantive Atkins claim.

121. Applicant did not ask the CCA to review the sufficiency of the
evidence to support the intellectual disability claim on direct appeal, where the
CCA would have had to pay “great deference” to the jury’s determination.
Williams v. State, 270 S.W.3d 112, 114 (Tex. Crim. App. 2008).
122. Applicant did not raise an Atkins claim in his first state habeas
writ.
123. Such a claim, including the new evidence, was available and
discoverable.
124. The CCA granted a stay and remanded Applicant’s intellectual
disability claim, pursuant to Article 11.071 § 5(a)(1), “because of recent changes
in the law pertaining to the issue of intellectual disability,” but did not grant
remand on Applicant’s attempt to challenge the substance of his Atkins claim
pursuant to the actual-innocence-of-the-death-penalty provision in Article
11.071 § 5(a)(3). See Ex parte Milam, 2019 WL 190209, at *1.
125. The Court finds that the following evidence supports the jury’s
determination that Applicant failed to demonstrate sub-average intellectual
functioning:

34

a.

State’s expert Dr. Proctor and defense expert Dr. Andrews,

who evaluated Applicant but did not testify, concluded that Applicant’s test
scores failed to satisfy this factor. 54 RR143-50; 55 RR 135-36.
b.

Dr. Proctor relied upon psychological testing data from Dr.

Andrews, who administered the WAIS-IV, on which Applicant obtained a fullscale score of 71, and the Stanford-Binet IQ, on which Applicant obtained an
IQ score of 80. Dr. Proctor also administered the RIAS, on which Applicant
scored an 80, and well as a second WAIS-IV, on which Applicant obtained a
full-scale IQ score of 68. 53 RR 200-02; 55 RR 135-37, 140-41, 149-55.
c.

Dr. Proctor explained that the second WAIS-IV of 68 should

have been higher, given the “practice effect.” 55 RR 151-53.
d.

Both Dr. Andrews and Dr. Proctor agreed that it was

unusual for someone to score better on the Stanford-Binet than the WAIS-IV.
55 RR 155-56.
e.

Both Dr. Andrews and Dr. Proctor administered effort tests

and Applicant did well on some but not on others; from this both doctors
surmised that Applicant put forth less-than-adequate effort and was likely
distracted. 54 RR 146-50; 55 RR 151-53, 156-59.
f.

Dr. Andrews and Dr. Proctor both agreed that a lack of

education can affect IQ testing; Dr. Proctor also suggested anxiety, depression,
emotional upset, and drug abuse could impact testing. 55 RR 165-66.

35

g.

Dr. Proctor also found significant that Applicant’s reading

comprehension scores were in the eighth-grade range, although his education
ended at the fourth grade, and persons with mild mental retardation can read
at most at a sixth-grade level. 55 RR 162-64.
h.

Dr. Proctor opined that, given the SEM, Applicant was

someone with below average intellectual functioning, in the borderline range,
but he did not believe Applicant showed significantly sub-average intellectual
functioning. 55 RR 149-50, 160, 165.
126. The jury also heard evidence in favor of a finding of intellectual
disability.
a.

Dr. Cunningham testified that Applicant satisfied the sub-

average-intellectual-functioning factor. 53 RR 197. Of note:
i.

Dr. Cunningham testified that the application of the

SEM to any IQ score of 70 or below is considered in the zone of intellectualdisability eligibility. 53 RR 199-200.
ii.

Dr. Cunningham discounted Dr. Proctor’s RIAS score

of 80, describing that test as not a “multi-subtest, fully-developed IQ test, but
. . . a measure of intellectual capability,” and a “screening measure,” whereas
the WAIS-IV and the Stanford-Binet are considered the more valid measures
of IQ. 53 RR 202-03, 257-58; 54 RR 139-42.

36

b.

Dr.

Cunningham

testified

that

Applicant

suffered

concurrent deficits in adaptive behaviors in all eleven of the categories listed
in the DSM-IV, see 53 RR 203-38, 260-62, including deficits in functional
academics, home living, social interpersonal skills, self-direction, and health
and safety, 53 RR 259-61; and Applicant suffered deficits in all three categories
identified by the AAIDD definition of adaptive deficits—conceptual, social, and
practical, 53 RR 261-62.
127. The Court finds Dr. Cunningham relied heavily on the testimony
of Applicant’s mother in reaching his conclusion on adaptive deficits. See 53
RR 153-54, 194, 262; 54 RR 153.
128. The Court finds credible Dr. Proctor’s opinion that Applicant had
some adaptive deficits as well as strengths, but he did not show significant
deficits to the level required to meet the second prong of the mental retardation
test. 55 RR 177, 257.
129. In support of this opinion Dr. Proctor reviewed a significant
amount of evidence and talked to several former employers, as well as
Applicant’s mother and sister. 55 RR 167-69.
130. Dr. Proctor disagreed with Dr. Cunningham’s use of adaptive
behavior rating scales to assess someone who is incarcerated because it is
difficult for a family member to accurately rate an incarcerated person, and a
family member is likely to show bias when answering the questions, 55 RR

37

170-71, 259-60; and disagreed with the actual scale used by Dr. Cunningham—
the Adaptive Behavior Scale, Residential and Community—because a formal
assessment of adaptive behavior should rate a person against a normal
population to see if he falls in the bottom two to three percent, but this test
rated Applicant against a group of developmentally disabled individuals living
within the community. 55 RR 171.
131. One of Applicant’s subsequent writ experts, Dr. Olley, agreed with
Dr. Proctor that the Adaptive Behavior Scale was “a poor choice.” Appl. Exh.
20, at 10
132. Dr. Proctor disagreed with Dr. Cunningham’s reliance upon
Applicant’s mother, who Dr. Proctor believes deliberately tried to portray her
son as slow. 55 RR 172-73.
a.

Shirley Milam told Dr. Proctor, and also testified, that

Applicant was slow in reaching developmental milestones such as walking and
talking, but the ages she actually gave for her son’s reaching those milestones
were normal. 55 RR 173-74; see 51 RR 341-42 (Applicant began crawling at
seven or eight months, using words at eight months, and walking at eleven or
twelve months)
b.

When Dr. Proctor talked to Applicant’s sister Teresa in her

mother’s presence, Teresa would state that Applicant could do something—like

38

work on cars—but Shirley would interject that Applicant was slow and that
someone helped him; Teresa would then change her answer. 55 RR 173-74.
c.

Shirley was not forthcoming with Dr. Proctor about

Applicant’s drug problem. 55 RR 174-75.
d.

For these reasons, Dr. Proctor did not place much weight on

the family’s testimony, 55 RR 176; and
e.

disagreed with Dr. Cunningham’s results that suggested

Applicant had the adaptive functioning of a three- or four-year-old. 55 RR 176.
133. Dr. Proctor found questionable Dr. Cunningham’s opinion that
Applicant showed deficits in his work history or vocational ability, given the
testimony of other witnesses who knew Applicant’s work history. 55 RR 17677, 255-57. Testimony demonstrated:
a.

Applicant got his first job at M & M Express Lube when he

was fifteen and held that job for two years. 51 RR 270, 277.
b.

Applicant worked for Big 5 Tire & Auto, where his duties

included diagnostic and mechanical work on cars, changing tires, and changing
oil. 50 RR 22.
c.

Applicant’s supervisor at Big 5, Bryan Perkins, testified that

Applicant’s performance was excellent and that he appeared to have no trouble
fulfilling his duties. 50 RR 25-27.

39

d.

Perkins encouraged Applicant to work toward a promotion

to salesman and began training Applicant to use the computer in connection
with this promotion; Applicant had no trouble learning. 50 RR 29-30; 54 RR
269-71.
e.

Perkins had to fire Applicant because he stopped coming to

work, but he stated that when Applicant was working, he was one of the best
employees Perkins had. 50 RR 31, 36-37.
f.

Co-worker, Gary Jenkins, trained Applicant and testified

that Applicant could perform job tasks without any problems, could operate
machinery and work with tools, did very well in training, did not have any
safety issues at work, performed his job duties, and kept the shop and tools
clean without prompting. 54 RR 263-69.
g.

When interviewed by Ranger Ray in connection with this

crime, Applicant told Ray about his prior work history as a mechanic and
demonstrated knowledge and ability regarding his job. 49 RR 72.
134. Other evidence supports Dr. Proctor’s conclusion that Applicant
was not a person with intellectual disability:
a.

An employee of Community Healthcore—a local provider of

mental health care and intellectual disability services—testified that he
assessed Applicant in jail, noting that Applicant’s appearance was appropriate,
and he seemed of average intelligence given his adequate vocabulary, his

40

ability to answer questions appropriately, and the lack of lapses in speech and
memory. 55 RR 27-32.
b.

Two of Applicant’s grade school teachers—Nelda Thornton

and Carolyn McIlhenny—testified that Applicant was a slow student with low
grades, but that he was frequently absent due to health issues and an
overprotective mother. 51 RR 9, 14, 26-27. McIlhenny opined that Applicant
could have been a better student if he had attended school regularly. 51 RR 3233, 35. Neither teacher recalled referring Applicant to a diagnostician for
determination of intellectual disability, but both recalled Applicant had a
speech impediment for which he received treatment. 51 RR 7-8, 13-15, 30-31.
c.

Applicant’s school records reflect that he was never held

back in school, that he was routinely absent from school, and that he was
evaluated by the special education department and identified as having a
speech impediment but no other disability. 54 RR 163-66.
d.

In the fourth grade, Applicant’s parents removed him from

school after he was paddled by the school principal and unsuccessfully
attempted to homeschool him for only about six months. 51 RR 237-40.
e.

Applicant’s friend Chris Lay testified Applicant was

educationally slow because he was removed from school in the fourth grade. 53
RR 12.

41

f.

Melanie Dolive, a special education teacher from Applicant’s

former school testified, from personal observation of him in her home, that
nothing in Applicant’s behavior led her to believe there was anything wrong
with him and that his available school records did not indicate any disability
other than speech impediment. 54 RR 294-97, 305-10; SX 298, 300.
g.

Sherry Brown, a retired teacher who regularly interacted

with Applicant, testified that he was able to do the work she asked him to do
and attributed any difficulties to his repeated absences from school; she never
felt the need to refer him for intellectual-disability screening. 54 RR 313-15.
h.

Cindy Smith, Special Education Director for Rusk County

Shared Services Arrangement, examined Applicant’s records and testified that
his last full and independent evaluation, dated February 8, 2000, indicated a
speech impediment only. 54 RR 321-23.
i.

Applicant’s cousin, Melynda Keenon, testified that she met

with Applicant to help determine his learning style for the purposes of
homeschooling and suggested that Applicant sign up for online classes. 55 RR
78-82. Keenon said Applicant would do whatever work she put in front of him
but was easily distracted. 55 RR 83-84. Keenon did not think Applicant showed
signs of intellectual disability. 55 RR 84-85.
j.

Neighbor Sarah Hodges, who also homeschooled her

children, gave Applicant schoolwork to do that was below his grade level

42

because he was behind, but she believed he was at the same level as her
daughter and foster-child, who were the same age. 55 RR 92, 89-100, 117-18,
121.
135. The Court finds that Shirley Milam admitted:
a.

Applicant began crawling at seven or eight months, began

using words at eight months, and began walking at eleven or twelve months,
51 RR 341-42; which Dr. Proctor said was normal.
b.

Applicant could use the computer and met Jesseca on

MySpace. 51 RR 283, 286, 344.
c.

Applicant took care of Amora—he gave her a bottle, put her

to bed, and watched cartoons with her, 51 RR 288-89, 344, and that he assumed
the role of caring for his dad when he lived at home—fixing him food and
getting him things. 52 RR 117-18.
d.

Applicant could take care of cars and hold a job. 51 RR 344.

e.

Applicant voluntarily gave his paycheck to his father every

week so that he would not be able to spend it. 51 RR 347-48.
f.

Applicant was evaluated for special education but only

needed treatment for his speech problem. 51 RR 340-41.
136. Dr. Proctor suggested Applicant’s adaptive deficits could be caused
by something other than intellectual disability such as drug use, lack of
opportunity, a deprived environment, or laziness. 55 RR 257-59.

43

137. Finally, regarding onset of intellectual disability before the age of
eighteen, Dr. Proctor found no evidence to support this. 55 RR 178, 180.
a.

Applicant’s school records indicated a speech impediment

but specifically left blank a section where a secondary impediment—like
intellectual disability or learning disability—could have been indicated. 55 RR
178.
b.

A letter from the school district indicated Applicant had

undergone a full and individual evaluation in 2000 but noted no intellectualdisability diagnosis. 55 RR 178-79.
CONCLUSIONS OF LAW
FIRST GROUND FOR RELIEF: Applicant claims he is entitled to
relief under Article 11.073 of the Texas Code of Criminal Procedure
because the current relevant scientific evidence related to the
reliability of bitemark comparison evidence contradicts expert
opinion testimony presented and relied upon by the State at trial.
138. Article 11.073 provides an applicant with a potential remedy
regarding “certain scientific evidence.”
139. To take advantage of the statute, an applicant must file a state
habeas application, pursuant to Article 11.071, “containing specific facts
indicating that” the “relevant scientific evidence is currently available and was
not available at the time of the [applicant’s] trial because the evidence was not
ascertainable through the exercise of reasonable diligence” and that the

44

“scientific evidence” would be admissible under the Texas Rules of Evidence.
Tex. Code Crim. Proc. art. 11.073(b)(1)(A)–(B).
140. If those prerequisites are met, an applicant must also show that,
by a preponderance of the evidence, “had the scientific evidence been presented
at trial . . . the [applicant] would not have been convicted.” Tex. Code Crim.
Proc. art. 11.073(b)(2).
141. The Court concludes that, while Applicant proffers some “relevant
scientific evidence” that was not available at the time of his trial, and such
would be admissible under the Texas Rules of Evidence, see Tex. Code Crim.
Proc. art. 11.073(b)(1)(A)–(B), he cannot demonstrate, by a preponderance of
the evidence, that “had the scientific evidence been presented at trial . . . the
[applicant] would not have been convicted.” Tex. Code Crim. Proc. art.
11.073(b)(2).
142. The Court concludes that Dr. Bowers’s affidavit, criticizing Dr.
Williams’s testimony as “misleading and unfounded at the time it was given,”
relies upon data that was known or available for cross-examination purposes
at the time of trial. See Bowers Report Exhibits (listing exhibits from 2009,
2010, 2011); see also Appl. Exh. 11, at 3 n.5 (It “was already understood at the
time of Dr. Williams’s testimony” that patterns left in material bitten by
human teeth are not “unique.”); Appl. Exh. 11, at 4-5 (at time of trial National

45

Academy of Sciences had criticized bitemark methodology). Therefore, Article
11.073(b)(1)(A) forecloses use of this evidence in these proceedings.
143. The Court concludes that the remaining exhibits—the 2016
PCAST Report, the 2016 TFSC Report, the updated ABFO Standards, and Ex
parte Chaney—were indeed unavailable at the time of trial.
144. The Court concludes that the 2016 PCAST Report, the 2016 TFSC
Report, the updated ABFO Standards, and Ex parte Chaney do not render
bitemark analysis testimony inadmissible in Texas.
145. The Court concludes that bitemark testimony is admissible under
the Texas Rules of Evidence. Ex parte Chaney, 563 S.W.3d at 256 (citing
Coronado v. State, 384 S.W.3d 919, 926–28 (Tex. App.—Dallas 2012, no pet.)
(holding bitemark testimony can reliably be used to exclude suspects in a closed
population)); see also State’s Attachment at 8 (ABFO Standards) (“[T]he
admissibility of bitemark evidence in a legal proceeding is a determination
made solely by the court.”); and would be admissible under the current ABFO
Manual which allows an ABFO Diplomate to conclude only that an individual
is “Excluded as Having Made the Bitemark,” “Not Excluded as Having Made
the Bitemark,” or “Inconclusive.” Ex parte Chaney, 563 S.W.3d at 257; State’s
Attachment at 2-3.

46

146. The Court concludes that the 2016 PCAST Report, the 2016 TFSC
Report, the updated ABFO Standards, and Ex parte Chaney do not render all
of Dr. Williams’s and Dr. Isaac’s trial testimony unreliable or inadmissible.
147. The Court concludes Dr. Williams and Dr. Isaac relied upon the
ABFO guidelines, applicable at of the time of trial, and significant portions of
their testimony would still be admissible today—namely, their testimony that
Applicant was “excluded” or “not excluded” from having made certain
bitemarks. See 44 RR 247-76; 45 RR 6-17, 24, 27; 47 RR 29-30, 35-43, 51-56,
64-67. Any evolution in the ABFO guidelines since Applicant’s trial does not
contradict this part of their testimony or undermine those conclusions.
148. The Court concludes that the procedures utilized to collect the
dentition models used for comparison by Dr. Williams and Dr. Isaac—including
enlisting a third dentist to collect the dentition models, and the collection of
three different models which were all considered “suspects”—comports with
the ABFO guidelines for “blinding.” See State’s Attachment at 2, 7, 11; 44 RR
222-24, 230.
149. The Court concludes that both Dr. Williams and Dr. Isaac
acknowledged that human dentition was not unique, and that human skin was
an imperfect medium for accurately recording bitemarks and did not ignore
these principles when arriving at their conclusions. See 44 RR 205-08, 238, 246,
255, 262-63; 45 RR 44-48, 63-64; 47 RR 10, 33-37, 52.

47

150. The Court concludes that Dr. Williams’s use of the word “unique”
to describe a pattern he recognized across the twenty-four bitemark injuries on
one victim—the distinctive “M” pattern and the petechial pinpoint
lacerations—that corresponded with one of the dentition models (Applicant’s)
but not the others, was reasonable, see 44 RR 236-49, 261-68, 273, 284-85; 45
RR 7, 19-20; and did not ignore the principal that human dentition itself is not
unique.
151. The Court concludes that, while Dr. Williams did use nowimproper terminology to describe some of the bitemarks, see 45 RR 19-33, 72;
see also Ex parte Chaney, 563 S.W.3d at 260-61 (noting that ABFO Manual no
longer allows examiners to give opinions to a “reasonable degree of dental
certainty” or individualization, i.e. “match”); he did so in conclusion, after
permissibly stating which bitemarks Applicant could not be excluded from.
152. The Court concludes that the changes to the ABFO guidelines
since the time of Applicant’s trial would impact some of Dr. Williams’s trial
testimony, but the newly proffered evidence does not impact significant and
compelling portions of both Dr. Williams’s and Dr. Isaac’s expert testimony.
153. The Court concludes that Dr. Williams and Dr. Isaac could
permissibly testify, under current ABFO standards, that Applicant could not
be excluded as the source of at least two bitemarks found on Amora’s body—
the bitemarks to Amora’s throat and left knee—but Jesseca and Danny could

48

be excluded as the source of these bitemarks. 44 RR 247-55; 45 RR 20-25; 47
RR 29-30, 51-52, 64-67.
154. From the testimony of Dr. Williams and Dr. Isaac, the Court
concludes that Applicant and Jesseca cannot be excluded from having
committed the crime together. 44 RR 281-85; 45 RR 6, 57; 47 RR 67.
155. The Court concludes that Dr. Williams sought independent
verification of his findings from Dr. Peter Loomis, in compliance with ABFO
guidelines. State’s Attachment at 2. Dr. Loomis agreed with Dr. Williams’s
findings. 45 RR 34-35, 40-41.
156. The Court concludes that neither Applicant, nor his appellate
expert Dr. Bowers, challenge the credibility of Dr. Isaac’s testimony. Therefore,
the Court concludes that Dr. Isaac’s testimony, which supports Dr. Williams’s
testimony on many points, is credible.
157. The Court concludes that this case is distinguishable from Ex parte
Chaney, in that neither Dr. Williams nor Dr. Isaac have changed their
opinions. 563 S.W.3d at 258 (State conceded “‘that the science behind forensic
odontology, as it relates to bite mark comparison, has considerably evolved
since the time of trial in 1987’ and that ‘[u]nder today’s scientific standards,
Dr. Hales relayed that he ‘would not, and could not’ testify as he did at trial,
nor could he testify that there was a ‘one to a million’ chance that anyone other
than [Chaney] was the source of the bite mark.”)

49

158. The Court concludes that Applicant cannot demonstrate, by a
preponderance of the evidence, that had Dr. Williams’s testimony been
rebutted with Applicant’s current evidence or even entirely excluded from trial,
Applicant would not have been convicted. Tex. Code Crim. Proc. art.
11.073(b)(2).
159. The Court also concludes that Applicant cannot demonstrate, by a
preponderance of the evidence, that had Dr. Williams’s testimony been limited
to being unable to exclude Applicant as a source of at least two of the twentyfour bitemarks on Amora’s body—as confirmed by Dr. Isaac at trial, and Dr.
Loomis on peer-review—Applicant would not have been convicted. Tex. Code
Crim. Proc. art. 11.073(b)(2).
160. The Court concludes that, unlike Ex parte Chaney—where
investigators initially had few leads and Chaney was only identified as a
suspect through an anonymous phone call, 563 S.W.3d at 245-47—given their
access and proximity to the victim and the crime scene, and their attempts to
cover up their involvement in the crime, see Findings of Fact 58-59, Applicant
and Jesseca Carson were the primary suspects and ultimately the only people
who could be responsible for Amora’s brutal murder.
161. The Court concludes that the following evidence directly
implicates Applicant in the murder (see Findings of Fact 58-80):

50

a.

Applicant confessed to the murder, a confession the State, in

closing arguments, called “monumental,” 48 RR 35-36, “unequivocal,” and “a
perfect gold standard confession,” 48 RR 151.
b.

Applicant’s clothing was forensically linked to Amora

through blood and DNA evidence.
1.

The Court concludes that, while Jesseca’s clothing was

also forensically linked to Amora, the State argued that Jesseca was also
involved in the murder, and
2.

the trace levels of blood found on her clothing do not

negate or explain the presumptively positive readings found on the entire
inside of Applicant’s shirt and underwear, the entire outside of his sock, and
his entire jacket.
c.

Applicant was observed prior to the discovery of Amora’s

body wearing jeans that were too large on him, while a smaller pair of jeans
were found at the crime scene, covered in the victim’s blood.
1.

The blood-stain on those jeans was “rather large,” 46

RR 177-78, concentrated primarily in the lap area, and described as a “contact
transfer bloodstain”—a stain created by contact with a blood-soaked object, 42
RR 203-04, 229-30;

51

2.

The Court concludes that this evidence strongly

suggests someone wearing the jeans sat a bleeding Amora on his lap, and later
changed out of the bloodstained jeans. See 56 RR 121-22.
3.

The Court concludes that there is no evidence to

suggest Jesseca wore the blood-soaked jeans, or that the jeans were used to
mop up blood. These explanations lack credibility.
d.

While in jail, Applicant directed his sister to remove

evidence from under the house.
1.

The Court does not find credible Applicant’s sister’s

testimony that Applicant asked her to retrieve a blue cellphone from under the
house because no cellphone has been found.
2.

Police investigators located a pipe-wrench in a plastic

bag that had been shoved through a hole in the floor of the master bathroom.
e.

The pipe-wrench was connected by trace-evidence analysis

to other incriminating evidence found at the crime scene and on the victim’s
body:
1.

the components of the lubricant Astroglide were found

2.

a bottle of Astroglide was found in the crime-scene

on the wrench;

bedroom, and

52

3.

the

components

of

Astroglide

were

found

on

babywipes, and a blood-stained diaper, all collected from the room where
Amora was murdered, as well as on the diaper she was wearing when her body
was found;
f.

The diaper Amora was wearing that contained the

components of Astroglide, was removed during her autopsy to reveal her
mutilated vagina and rectum which were torn to such an extent that there
appeared to be one large opening instead of two, and the injury perforated
internally and extended into her body cavity and was likely caused by the
insertion of an object other than a penis hours before she died.
g.

Neither Applicant nor Jesseca could be excluded as a

contributor of the DNA on four samples swabbed from the numerous bitemarks
on Amora’s body; and, on the sample taken from Amora’s left elbow, the
majority of the genetic markers corresponded to Applicant with a statistical
probability of 1 in 27,000 Caucasians, 1 in 43,600 African-Americans, and 1 in
47,200 Hispanics. 43 RR 136-137, 183-86.
1.

While Jesseca also could not be excluded, the

probability of her being a contributor was much less—1 in 123 Caucasians, 1
in 72 African-Americans, and 1 in 105 Hispanics. 43 RR 137. Given that only
two people were known to be with Amora on the night of her murder, the Court

53

concludes this DNA evidence taken from injuries on her body more strongly
points to Applicant as the contributor.
2.

The Court does not find credible the explanation that

DNA could have been left on Amora’s elbow while Applicant attempted to
perform CPR.
162. The Court concludes that, while the bitemark testimony was
significant, the very existence of twenty-four bitemarks on this child’s bruised
and battered body, coupled with the circumstantial evidence implicating
Applicant in this brutal murder, DNA evidence linking him to the injuries, his
considerable efforts to cover up his involvement and hide evidence after the
fact, and his confession were all indicative of his guilt. Applicant and Jesseca
were the only two people who could have inflicted these injuries upon Amora
the night of her murder.
163. The Court concludes that, given this evidence, if bitemark
testimony were excluded all together, Applicant still could not demonstrate, by
a preponderance of the evidence, that he would not have been convicted as
either the primary perpetrator or as a party to this capital murder. Tex. Code
Crim. Proc. art. 11.073(b)(2); see also 4 CR 934 (jury charge on capital murder
instructing jury to find beyond a reasonable whether, acting alone or as a
party, Applicant caused Amora’s death).

54

164. The Court alternatively concludes that, because bitemarkcomparison testimony is still admissible, and even with the ABFO’s new
guidelines limiting Dr. Williams’s testimony, the jury could still hear that
Applicant could not excluded as a contributor of at least two bitemarks (as
corroborated by Dr. Isaac), while Jesseca could be excluded as to both. Given
all the evidence, Applicant cannot show, by a preponderance of the evidence,
that he would not have been found guilty if the newly available evidence—
limiting Dr. Williams’s testimony only to the fact that Applicant could not be
excluded as a contributor of two bitemarks, and foreclosing him from using the
terms “matched,” or “to a reasonable degree of dental certainty”—had been
admitted at this trial.
165. The Court concludes that relief on this claim should be denied.
SECOND GROUND FOR RELIEF: Applicant contends his
execution would violate the Eighth and Fourteenth Amendments
because he is intellectually disabled.
A.

Court’s review is limited to the procedural claim.

166. The Court concludes that the CCA implicitly rejected Applicant’s
Article 11.071 § 5(a)(3), actual-innocence-of-the-death-penalty argument by
narrowly finding that Applicant met only the dictates of Article 11.071
§ 5(a)(1). See Ex parte Milam, 2019 WL 190209, at *1.

55

167. The Court concludes that the CCA effectively severed the
procedural claim—applying Moore I and Hall—from the substantive Atkins
claim. Therefore, the substantive Atkins claim is not before the Court.
168. The Court concludes that any new evidence offered in support of
this claim pertains to the substantive Atkins claim, and will not considered in
reference to the procedural claim.
169. The Court concludes its review is thus limited to the applicability
of new Supreme Court authority—Moore I, Moore II, and Hall—and whether
the procedural flaws identified in those cases occurred in Applicant’s trial.
B.

Retroactive application of Moore I is barred by Teague.

170. The Supreme Court recently held that Moore I is a new rule of law.
See Shoop v. Hill, 139 S. Ct. 504 (2019).
171. Habeas review is generally not an appropriate avenue for the
recognition of new constitutional rules; thus, new constitutional rules usually
do not apply to convictions final before the new rule was announced. Teague,
489 U.S. at 310 (plurality opinion).
172. The CCA “follows Teague as a general matter of state habeas
practice.” Ex parte De Los Reyes, 392 S.W.3d 675, 679 (Tex. Crim. App. 2013);
see also Ex parte Lave, 257 S.W.3d 235, 237 (Tex. Crim. App. 2008) (applying
Teague to Article 11.071).

56

173. The Court concludes that Applicant’s conviction became final on
August 21, 2012, before Hall, Moore I, or Moore II were decided.
174. The Court concludes that, because Moore I is a new rule of law, it
should not be retroactively applied to undermine Applicant’s pre-Moore state
court decision.
175. The Court also concludes that Applicant does not meet an
exception to the Teague bar:
a.

While Atkins itself was a substantive rule in that it barred

death sentences for intellectually disabled persons as a class, see Atkins, 536
U.S. at 321, the rule announced in Moore I is not—Moore I “neither
decriminalize[s] a class of conduct nor prohibits imposition of capital
punishment on a particular class of persons.” Saffle v. Parks, 494 U.S. 484, 495
(1990).
b.

The Court concludes that, in rejecting the methods adopted

by the CCA for examining Atkins claims in Moore I, and rejecting Florida’s rule
restricting the application of Atkins to defendants with an IQ of 70 or less in
Hall, the Supreme Court created rules of procedure, not substance. See Shoop,
139 S. Ct. at 507-08 (While Atkins noted standard definitions of mental
retardation included “significant limitations in adaptive skills ... that became
manifest before age 18” as a necessary element, it did not definitively resolve
how that element should be evaluated leaving application to the States; in Hall

57

and Moore I, the Court “expounded on the definition of intellectual disability”
in ways that could not have been “teased” out of Atkins Court’s brief comments
on intellectual disability.) (citing Atkins, 536 U.S. at 317-18).
c.

The Court concludes Moore I and Hall do not create any

watershed rule of criminal procedure, “necessary to prevent an impermissibly
large risk of an inaccurate conviction[.]” Whorton v. Bockting, 549 U.S. 406,
418 (2007) (quoting Schriro v. Summerlin, 542 U.S. 348, 356 (2004)) (internal
quotation marks omitted). Applicant does not challenge his conviction but his
punishment; if this exception is even applicable to punishment, Applicant fails
to prove that his new rule would “‘seriously diminish[] the likelihood of
obtaining an accurate determination’ in his sentencing proceeding.” Graham
v. Collins, 506 U.S. 461, 478 (1993) (quoting Butler v. McKellar, 494 U.S. 407,
416 (1990)); see id. at 478 (holding that the failure to provide a mitigation
special issue was not a watershed rule of criminal procedure).
d.

The Court also concludes that Applicant does not meet the

second watershed-rule-of-criminal-procedure prong—Applicant’s new rule
“simply lacks the ‘primacy’ and ‘centrality’ of the [entitlement-to-trial-counsel
rule of] Gideon[v. Wainwright, 372 U.S. 335 (1963)] and does not qualify as a
rule that ‘alter[ed] our understanding of the bedrock procedural elements
essential to the fairness of a proceeding.’” See Bockting, 549 U.S. at 420–21
(third alteration in original) (citations omitted).

58

176. The Court concludes that Moore II, reversing Ex parte Moore II for
analysis that “too closely resembles” what the Supreme Court found improper
in Moore I, fails to meet any Teague exception for the same reasons discussed.
139 S. Ct. at 672.
177. The Court concludes, because Applicant’s conviction was final
when Moore I was decided, and because Applicant cannot demonstrate that the
new rule announced in Moore I falls within in an exception to the nonretroactivity rule of Teague, he cannot benefit from retroactive application.
C.

Moore I, Moore II, and Hall do not mandate relief.

178. In the alternative, the Court concludes that, if Moore I, Moore II,
and Hall do apply retroactively, they do not implicate Applicant’s case and he
is entitled to no relief.
179. Atkins held that “the Constitution places a substantive restriction
on the State’s power to take the life of a[n] [intellectually disabled] offender.”
536 U.S. at 321. But, recognizing that not all offenders who claim intellectual
disability “will be so impaired as to fall within the range of [intellectually
disabled] offenders about whom there is a national consensus,” the Supreme
Court charged the States to develop “appropriate ways to enforce the
constitutional restriction upon [their] execution of sentences.” Id. at 317.

59

180. The Court concludes that the jury’s determination, by a
preponderance of the evidence, that Applicant was not a person with
intellectual disability, see 4 CR 985-88; 56 RR 167-69, did not run afoul of any
Supreme Court precedent.
181. The Court finds that the errors that occurred in Hall did not occur
in Applicant’s trial. See 572 U.S. at 711-12 (finding Florida’s intellectualdisability scheme unconstitutional because it adopted “strict IQ test score
cutoff of 70,” without allowing consideration of SEM margins, and foreclosing
presentation of other evidence indicating petitioner’s faculties were limited
where evidence indicated IQ score above 70).
182. The Court finds that “Texas has never adopted the bright-line
cutoff at issue in Hall,” Mays v. Stephens, 757 F.3d 211, 218 (5th Cir. 2014),
and Texas does not restrict the presentation of evidence when an IQ score rises
above 70, Mays, 757 F.3d at 218; see also Garcia v. Stephens, 757 F.3d 220, 226
(5th Cir. 2014). Hall did not identify Texas as one of the states impacted by the
decision. See 572 U.S. at 714-17.
183. In Moore I, the Supreme Court did not extend Hall to the Texas
framework for analyzing the intellectual functioning prong, but to the CCA’s
refusal to consider, on appellate review, all of Moore’s evidence suggesting subaverage intellectual functioning. See 137 S. Ct. at 1048-49. The Supreme Court
found that the CCA had contravened Hall by refusing to consider all the IQ

60

scores. Specifically, the CCA rejected five of Moore’s seven IQ scores, including
a score as low as 59, and settled on only one score of 78. See Ex parte Moore I,
470 S.W.3d at 518-19. The CCA also disregarded the lower SEM associated
with Moore’s scores, and concluded his score fell above the intellectually
disabled range. Id. at 513.
184. The Supreme Court faulted the CCA’s rejection of Moore’s Atkins
claim, finding the CCA (1) refused to account for the SEM when considering
borderline IQ scores, in violation of Hall; (2) overemphasized adaptive
strengths over deficits; (3) required that the defendant demonstrate that his
adaptive deficits are not related to a risk factor or a personality disorder; and
(4) the CCA’s use of the Briseno factors to evaluate a defendant’s adaptive
functioning departed from “current medical standards.” See Moore I, 137 S. Ct.
at 1049-52. The Court concludes that these errors did not occur in Applicant’s
trial.
184. The Court concludes that, because Applicant did not raise his
Atkins claim on appeal, the errors committed by the CCA on postconviction
review, as identified by the Supreme Court in Moore I and Moore II, did not
occur in Applicant’s case.
185. The Court also concludes that the errors that occurred in Hall,
Moore I, and Moore II did not arise in the jury’s determination of the
intellectual disability special issue during Applicant’s trial.

61

186. Regarding the first step of the intellectual disability analysis, the
Court concludes that, through the combination of expert testimony and jury
instruction, the jury had the proper diagnostic framework for assessing subaverage intellectual functioning, see cf. Thomas v. State, 2018 WL 6332526, at
*18, (suggesting proper framework for adaptive functioning criteria could be
conveyed “by evidence presented [or] by the trial court’s definitional
instructions”), and there is no evidence that the jury failed to apply the proper
standard. See Zafiro v. United States, 506 U.S. 534, 540-41 (1993) (citing
Richardson v. Marsh, 481 U.S. 200, 211 (1987) (“‘[J]uries are presumed to
follow their instructions.’”).
187. The Court concludes that the experts did not discount the SEM;
and the jury was not encouraged or permitted to disregard the SEM, or to cease
consideration of the intellectual disability special issue if they concluded
Applicant did not show sub-average intellectual functioning. See Hall, 572 U.S.
at 711-12; see also Moore I, 137 S. Ct. at 1049-50. And there is no evidence that
the jury actually disregarded the SEM or ceased deliberations after
considering the intellectual-functioning factor.
188. The Court concludes that Dr. Proctor’s expert testimony did not
preclude the jury from considering evidence or encourage the jury to cease
deliberations after hearing his opinion on intellectual functioning, without
considering all the evidence. Dr. Proctor’s testimony did not encourage the jury

62

to refuse to entertain evidence of intellectual disability, “narrow the testspecific standard error range,” or disregard current medical standards in
reaching his opinions. Moore I, 137 S. Ct. at 1049; Hall, 572 U.S. at 723.
189. The Court concludes that Dr. Proctor encouraged the jury to also
consider the adaptive-functioning evidence apart from his opinion that
Applicant did not demonstrate subaverage intellectual functioning. See 56 RR
167 (testifying that “it’s not just about how you score on an IQ test, it’s also
about how you function in the world.”); 55 RR 149-50 (because the SEM could
put many scores in a “borderline” range, falling five points higher or lower,
such was “a good demonstration of why the standard for meeting the
definition” of intellectual disability was not based just on testing, but “on
multiple pieces of information,” and IQ score was just one of those pieces); 55
RR 202 (agreeing that because of the SEM, “we want to look at not only the
scores, we also want to look at the adaptive functioning”).
190. The Court concludes that Dr. Proctor’s testimony indicating
Applicant’s IQ scores placed him in the borderline range, see 55 RR 149-67,
199-203; remains compatible with current law and diagnostic standards.
Contrary to Applicant’s argument, see Response to State’s Motion to Dismiss
at 11, n.2, the Supreme Court did not foreclose the use of this terminology. See
Moore II, 139 S. Ct. at 668 (citing Moore I, 137 S. Ct. at 1048-50) (“[W]e wrote
that Moore’s intellectual testing indicated his was a borderline case, but that

63

he had demonstrated sufficient intellectual-functioning deficits to require
consideration of the second criterion—adaptive functioning.”) (emphasis
added).
191. The Court concludes that, while the jury heard Dr. Proctor’s
ultimate opinion that Applicant was not someone with significantly subaverage intellectual functioning, 55 RR 149-50, 160-65, the Supreme Court
does not foreclose expert opinion on the ultimate conclusion, and the jury was
free to disregard this opinion in favor of Dr. Cunningham’s opinion that
Applicant did satisfy the sub-average-intellectual-functioning factor, and his
testimony discrediting the reliability of the higher IQ scores. 53 RR 197-203,
257-58; 54 RR 139-42.
192. The Court concludes that the Supreme Court did not foreclose the
presentation of expert testimony regarding a spectrum of IQ scores, and the
potential reliability of some scores over others. Rather, the Supreme Court
condemned the CCA’s refusal to consider all the IQ scores. See Moore I, 137 S.
Ct. at 1049-50; Ex parte Moore I, 470 S.W.3d at 513, 518-19 (rejecting five of
Moore’s seven IQ scores, including score of 59, and settling on one score of 78,
and disregarding the lower SEM associated with Moore’s scores, concluding his
score fell above the intellectually disabled range).

64

193. This Court rejects an interpretation of Moore I, Moore II, and Hall
as precluding the State from presenting evidence in rebuttal of a defendant’s
intellectual disability claim.
194. At issue in Moore I, Moore II, and Hall was whether the trier of
fact was precluded from considering evidence or encouraged to cease
deliberations without considering all the evidence. The Court concludes this
did not happen in Applicant’s case. The jury heard evidence and was instructed
on all three factors of the intellectual disability test.
195. The Court next concludes that, in the jury’s consideration of the
adaptive-functioning factor, the Briseno factors had no place in Applicant’s
trial. See Moore I, 137 S. Ct. at 1051-52 (condemning the CCA’s analysis of the
adaptive functioning evidence through application of the Briseno factors,
rejecting those factors as advancing “lay perceptions of intellectual disability,”
rather than current medical standards); see also Moore II, 139 S. Ct. at 679
(reversing the CCA again, concluding that, although the state court appeared
to abandon Briseno, it continued to “pervasively infect[t]” the court’s analysis);
Thomas v. State, 2018 WL 6332526, at *17-18 (CCA granted relief, in part,
because State’s expert explicitly relied on the Briseno factors in forming his
opinion on adaptive functioning; thus, jury did not have the proper framework
for assessing intellectual disability).

65

196. The Court concludes that witnesses were not impermissibly
questioned about the Briseno factors, and the jury had the proper diagnostic
framework for assessing adaptive deficits.
197. The Court rejects Applicant’s efforts to parse Briseno references
from the testimony at his trial and finds that Applicant fails to demonstrate
error under Moore I or II. The Court concludes that the State’s questioning of
experts and lay witnesses—which Applicant believes invoke the Briseno
factors without mentioning them—was either distinctly relevant under the
specific circumstances of this case, or entirely unrelated to the Briseno factors.
198. The Court concludes that the questioning of teachers and family
regarding whether Applicant was ever considered for, or diagnosed with, an
intellectual disability was appropriate to put into context record evidence that
Applicant underwent a full and individual evaluation by the school special
education department in 2000, but was only diagnosed with a speech
impediment; he was not referred for any other services, and the evaluators did
not identify him as someone with an intellectual deficit. See 54 RR 321-23; 55
RR 179. Given that many of Applicant’s special education records were
destroyed per district policy, 54 RR 323-24, family and teachers alike could
have knowledge of this special education evaluation and the purpose for which
he was referred. The Court concludes that these questions were appropriate
and unrelated to any Briseno factor.

66

199. The Court concludes that, the fact that Applicant was evaluated
by the special education department during his development years but not
diagnosed with intellectual disability or referred for services, is relevant to the
jury’s determination on all three factors of the intellectual disability test,
especially onset before the age of eighteen.
200. The Court concludes that the questions presented to Bryan
Perkins and Crystal Zapata regarding whether, from their personal
observations, Applicant was dominant in his relationship with Jesseca, 55 RR
37, 115, was directly relevant to rebutting Applicant’s repeated efforts during
both phases of trial to portray Jesseca as more sophisticated and the likely
instigator, if not perpetrator, of this murder. The Court concludes that these
questions were appropriate and unrelated to any Briseno factor.
201. The

Court

also

concludes

that

the

questions

regarding

relationships would be directly related to the DSM and AAIDD criteria for
adaptive deficits identified by Dr. Cunningham, such as social interpersonal
skills, or whether he has deficits in social skills, including interpersonal skills,
self-esteem, gullibility, naivete, or victimization avoidance. See 53 RR 204-05.
202. The Court concludes that questioning Dr. Cunningham about
whether he knew Applicant lied to a police officer, 54 RR 168, was relevant to
whether Applicant was naïve and followed the rules and was a permissible
question to ask of an expert offering an opinion. See Moore II, 139 S. Ct. at 672

67

(acknowledging that clinicians ask questions similar to the CCA’s Brisenorelated statements that may be relevant, and citing to AAIDD-11, at 44,
“noting that how a person ‘follows rules’ and ‘obeys laws’ can bear on
assessment of her social skills”).
203. The Court also concludes that an expert’s knowledge of Applicant’s
ability to lie and his adherence to that lie is also relevant to the jury’s
determination of the future-danger and mitigation special issues, as well as
Applicant’s culpability as a party to the murder. The Court concludes that this
question to Dr. Cunningham was appropriate and unrelated to any Briseno
factor.
204. The Court concludes that the five witnesses questioned regarding
Applicant’s ability to conduct himself appropriately at school, work, or around
other children, were educators and thus not “lay witness” offering perceptions
of children and their behavior. See Moore I, 137 S. Ct. at 1051-52 (rejecting
reliance on lay witness perceptions of Moore’s placement in a normal
classroom, father’s reaction to academic challenges, and sister’s perception of
his intellectual disability). The Court concludes that these questions were
appropriate and unrelated to any Briseno factor.
205. The Court concludes that, under the circumstances of this case, the
above-cited questioning, see Findings of Fact 104-15, did not invoke Briseno.
Rather, the cited questions evoked evidence directly relevant to the adaptive-

68

deficit and age-of-onset factors contained within the AAIDD and DSM-IV, as
explained by Dr. Cunningham, as well as the other special issues presented to
the jury, or served as rebuttal to the defense’s claim that Jesseca was in
control.
206. The Court concludes that, even if it were to draw a comparison
between the cited questioning and testimony and the now-foreclosed Briseno
factors, these remote similarities do not demonstrate that “Briseno pervasively
infected the [jury’s] analysis.” Moore I, 137 S. Ct. at 1053; Moore II, 139 S. Ct.
at 672. Especially considering Dr. Cunningham’s explanation of adaptive
functioning, and the lack of any testimony or instruction on the Briseno factors.
207. The Court concludes that, unlike the CCA, which created the
Briseno factors and explicitly relied upon them in Moore I, and implicitly in
Moore II, Applicant’s jury had no knowledge of Briseno, and received no
instruction on it. Therefore, the “lay stereotypes of the intellectually disabled”
that infected the CCA’s application of the Briseno factors did not infect this
jury’s determination of the intellectual disability special issue. Moore I, 137 S.
Ct. at 1052; Moore II, 139 S. Ct. at 672 (comparing Ex parte Moore II, 548
S.W.3d at 570–571: finding evidence that Moore “had a girlfriend” and a job as
tending to show he lacks intellectual disability, with AAIDD–11, at 151:
criticizing the “incorrect stereotypes” that persons with intellectual disability
“never have friends, jobs, spouses, or children”).

69

208. The Court concludes that the Supreme Court did not foreclose the
presentation of relevant evidence, through expert or lay testimony, but
condemned the CCA’s analysis of the adaptive functioning evidence through
application of the Briseno factors. Moore I, 137 S. Ct. at 1051-53; Moore II, 139
S. Ct. at 672.
209. The Court concludes that, because the Briseno factors were not a
part of this trial, Applicant’s conviction does contravene Moore I or II. See
Moore I, 137 S. Ct. at 1051-53; Moore II, 139 S. Ct. at 672; Thomas, 2018 WL
6332526, at *17-18.
210. The Court next concludes that, in reaching his conclusion, the
State’s expert Dr. Proctor, did not overemphasize Applicant’s adaptive
strengths over deficits. See Moore I, 137 S. Ct. at 1050.
211. The Court concludes that Dr. Proctor did not focus on Applicant’s
strengths, but, rather, concluded that Applicant has both deficits as well as
strengths, but does not have significant deficits in adaptive behavior at the
level required for intellectual disability. 55 RR 177, 256-57.
212. The Court concludes that, in reaching this conclusion, Dr. Proctor
did not focus on Applicant’s strengths but, rather, explained why he disagreed
with Dr. Cunningham’s adaptive-deficits opinion through an analysis of the
testing and the credibility of the underlying data relied upon by Dr.
Cunningham. 55 RR 170-76; see Findings of Fact 116-20.

70

213. The Court concludes that Dr. Proctor’s rational disagreement
about Dr. Cunningham’s interpretation of the evidence relied on to support his
opinion, is supported by the record and does not amount to overemphasizing
strengths. See Moore I, 137 S. Ct. at 1050 (CCA recited perceived strengths—
Moore lived on the streets, mowed lawns, and played pool for money—as
evidence adequate to overcome objective evidence of adaptive deficits.)
214. The Court concludes that the State did not mischaracterize risk
factors associated with intellectual disability as reason to doubt deficiencies in
intellectual function. See Moore I, 137 S. Ct. at 1051 (CCA attributed Moore’s
limitations in academic and social-interaction skills to childhood trauma,
undiagnosed learning disorders, repeatedly changing elementary schools,
racially motivated harassment and violence at school, history of academic
failure, drug abuse, and absenteeism, rather than intellectual disability, see
Ex parte Moore I, 470 S.W.3d at 526; the Supreme Court reversed, noting
“[t]hose traumatic experiences . . . count in the medical community as ‘risk
factors’ for intellectual disability.”).
215. The Court concludes that Dr. Proctor’s testimony that Applicant’s
lack of formal education and limited opportunities for socialization could
explain his low intellectual functioning, 55 RR 210-12, did not mischaracterize

71

risk factors associated with intellectual disability as reason to doubt
deficiencies in intellectual function.
216. The Court concludes, once again, that the Supreme Court did not
foreclose expert testimony on “risk factors,” and the State is permitted to
present expert testimony in response to Applicant’s testimony that certain risk
factors could have led to his intellectual disability. See 53 RR 273-347; Findings
of Fact 118-20. While the Supreme Court noted that “[c]linicians rely on such
[risk] factors as cause to explore the prospect of intellectual disability further,”
Moore I, 137 S. Ct. at 1051, the Court did not suggest that a clinician cannot
himself conclude those “risk factors” did not demonstrate intellectual
disability. Rather, the Court faulted the CCA for dismissing evidence of
academic failures as possibly attributed to these risk factors rather than
intellectual disability. Id.
217.

The Court concludes that Dr. Proctor’s assessment that a lack of

formal education and limited opportunities for socialization could explain
Applicant’s low intellectual functioning, is supported by the record and is a
reasonable interpretation of the evidence. See Finding of Fact 118-19.
Applicant was believed capable of learning, 51 RR 32-33, 35; 54 RR 313-15; 55
RR 83-84, 94-99, and could read within an eighth-grade range, even though his
education ended at fourth grade, and persons with mild mental retardation can

72

read at most at a sixth-grade level, 55 RR 162-64. This evidence strongly
supported Dr. Proctor’s opinion that Applicant’s lack of formal education and
limited opportunities for socialization could explain his low intellectual
functioning, and is not foreclosed by Moore I.
218. The Court concludes that, through a combination of jury
instruction and Dr. Cunningham’s and Dr. Proctor’s expert testimony, the jury
received the proper diagnostic framework for considering the adaptive
functioning criteria. See Thomas, 2018 WL 6332526, at *17-18 (concluding
that, while the jury instruction properly incorporated basic requirements of
adaptive behavior, the instruction did not incorporate “a full explanation of the
three domains” including in the DSM-V’s concept of adaptive functioning, and
did not include language explaining that the jury need only find deficiency in
one of the three domains to find intellectual disability; but court indicated this
information could be “fully conveyed to the jury . . . by the evidence presented
[or] by the trial court’s definitional instructions.”) (emphasis added).
219. The Court concludes that Dr. Cunningham’s testimony clearly
conveyed a full explanation of the concept of intellectual disability, including a
full and thorough explanation of adaptive functioning and the requirements
for finding intellectual disability, see Findings of Fact 102-03; Dr. Proctor’s
testimony confirmed Dr. Cunningham’s explanation, 55 RR 167, 239-40; and

73

the jury charge instructed the jury that, to answer “yes” to the intellectual
disability special issue, they must find all three factors, and defined the terms
“mental

retardation,”

“significantly

sub-average

general

intellectual

functioning,” and “adaptive behavior.” 4 CR 980-81; 56 RR 8.
220. The Court concludes that this information fully conveyed to the
jury the proper standard applicable at the time of Applicant’s trial.
Furthermore, neither the instructions nor the witness testimony discussed the
now-foreclosed Briseno factors. The instructions and evidence at trial did not
“deviate from prevailing clinical standards,” see Thomas, 2018 WL 6332526, at
*18 (citing Moore I, 137 S. Ct. at 1051), or encourage the jury to cease
consideration of the evidence, see Hall, 572 U.S. at 711-12. The Court concludes
that the jury received the proper diagnostic framework for considering the
intellectual-disability evidence. See Thomas, 2018 WL 6332526, at *17-18.
D.

The substantive Atkins claim is procedurally barred and
otherwise meritless.

221. The Court concludes that, by limiting its remand of Applicant’s
intellectual disability claim, pursuant to Article 11.071 § 5(a)(1), “because of
recent changes in the law pertaining to the issue of intellectual disability,” see
Ex parte Milam, 2019 WL 190209, at *1, the CCA implicitly rejected
Applicant’s attempt to challenge the substance of his Atkins claim pursuant to
the actual-innocence-of-the-death-penalty provision in Article 11.071 § 5(a)(3).

74

Therefore, the Court concludes that, outside of the impact of Hall, Moore I, and
Moore II on the jury’s determination as discussed above, the substantive Atkins
claim is procedurally barred, and the Court will not revisit the jury’s rejection
of the intellectual disability issue.
222. The Court concludes that Applicant cannot avoid the procedural
bar to appellate review of his intellectual disability claim.
223. The Court concludes that, because Applicant did not ask the CCA
on direct appeal to review the sufficiency of the evidence to the support the
jury’s determination on intellectual disability, he is now foreclosed from
seeking such review in this habeas court. See Ex parte Gardner, 959 S.W.2d
189, 199 (Tex. Crim. App. 1996).
224. The Court concludes that because Applicant did not timely
challenge the jury’s determination on intellectual disability pursuant to Atkins
in any court, and because this substantive claim was not part of the CCA’s
original remand, this Court may only consider such a challenge pursuant to
the Article 11.071 § 5(a)(3) standard, paying significant deference to the jury’s
determination.
225. The Court concludes that it cannot review Applicant’s substantive
challenge unless he demonstrates by clear and convincing evidence that, but
for a constitutional violation, no rational juror would have answered the
intellectual disability special issue in favor of death. Article 11.071 § 5(a)(3);

75

see Ex parte Woods, 296 S.W.3d 587, 606 (Tex. Crim. App. 2009) (“The issue
then is whether, considering the prior evidence and findings, [A]pplicant’s
additional evidence reasonably shows, by clear and convincing evidence, that
no rational finder of fact would fail to find that he is [intellectually disabled].”);
see also Ex parte Blue, 230 S.W.3d 151, 162-63 (Tex. Crim. App. 2007).
226. The Court concludes that the jury’s negative answer to the
intellectual disability special issue in Applicant’s trial must carry significant
weight in a successive analysis. See Ex parte Woods, 296 S.W.3d at 605-06
(where applicant filed successive application presenting same Atkins claim
previously rejected on the merits by the same court, but relying on additional
new evidence, CCA held “prior evidence and findings are relevant to a
determination of whether applicant’s current pleading meets the requirements
of Article 11.071, § 5(a)(3)[.]”)
227. The Court concludes that, even if considered in light of Moore I,
Moore II, or Hall, Applicant’s evidence fails to demonstrate clear and
convincing evidence such that no rational factfinder would fail to find him
intellectually disabled. See Ex parte Milam, 2019 WL 190209, at *1 (Yeary, J.,
dissenting) (“Applicant presented a prima facie case for intellectual disability
at the punishment phase of his capital murder trial in 2010, but the jury
rejected it[,]” and Applicant now relies “primarily upon the same evidence of
intellectual disability that was presented to the jury[.] . . . [T]he evidence does

76

not satisfy the Blue standard even if taken in light of Moore’s rejection
of Briseno.”); Ex parte Blue, 230 S.W.3d at 162.
228. The Court concludes that Applicant fails, once again, to
demonstrate that he is intellectually disabled.
229. The Court concludes that, as discussed above, Moore I and II do
not render the evidence from trial inadmissible.
230. The Court concludes that sufficient evidence exists in the record to
support the jury’s determination that Applicant failed to demonstrate
intellectual disability by showing (1) deficits in general mental abilities; (2)
impairment in adaptive functioning, and (3) onset during the developmental
period. See Ex parte Moore II, 548 S.W.3d at 560; see also Findings of Fact 12537.
231. The Court concludes that, while both sides presented significant
evidence in support of or against all three factors of the intellectual disability
test, the jury ultimately concluded that Applicant did not meet his burden of
proving by a preponderance of the evidence that his is intellectually disabled.
Neal v. State, 256 S.W.3d 264, 273 (Tex. Crim. App. 2008). The jury’s
determination was not against the “great weight” of this evidence. Id.; Gallo v.
State, 239 S.W.3d 757, 770 (Tex. Crim. App. 2007).
232. The Court concludes that Dr. Proctor’s opinion—supported by the
report of defense expert Dr. Andrews, Applicant’s school records, and the

77

testimony of numerous witnesses who knew Applicant and observed him as a
child and young adult—was far more credible than that of Dr. Cunningham,
which relied primarily on the biased observation of Applicant’s mother. “The
jury [is] ultimately in the best position to make credibility determinations and
evaluate this conflicting evidence.” Gallo, 239 S.W.3d at 774; see also Williams
v. State, 270 S.W.3d 112, 114 (Tex. Crim. App. 2008) (reviewing court pays
“great deference” to jury’s finding in deciding whether finding is “so against
the great weight and preponderance of the evidence so as to be manifestly
unjust.” (citing Neal, 256 S.W.3d at 273)).
233. The Court concludes that Applicant’s new evidence does not
undermine the jury verdict.
234. The Court concludes that Applicant’s new experts essentially
reexamined the same evidence admitted at trial, in addition to the new expert
and lay-witness affidavits which conveyed information similar to that admitted
at trial. Only Dr. Fletcher performed any additional analysis—he administered
the Vineland Scales of Adaptive Behavior-2 to Applicant’s mother and sister,
Teresa.
235. The Courts concludes that Dr. Fletcher’s assessment, relying on
the testimony of Applicant’s mother and sister, is no more credible than Dr.
Cunningham’s assessment relying on the same sources, which Dr. Proctor
found lacking in credibility and which the jury rejected.

78

236. The Court concludes that the jury has already rejected Dr.
Cunningham’s assessment of Applicant, as well as his reliance on Dr. Gripon’s
report at trial, see 53 RR 207-08, 211, 215, 217, 219, 233, 244; 54 RR 224; 55
RR 207, 235; 56 RR 64; finding in favor of Dr. Proctor’s testimony. The Court
concludes that the jury was ultimately in the best position to make credibility
determinations and evaluate conflicting evidence proffered in connection with
the intellectual disability special issue. See Hunter v. State, 243 S.W.3d 664,
671-72 (Tex. Crim. App. 2007); Gallo, 239 S.W.3d at 774; Hall v. State, 160
S.W.3d 24, 40 (Tex. Crim. App. 2004).
237. The Court concludes that Applicant’s new evidence is not
compelling, nor does it “dramatically undermine the previously considered
substantial evidence that support[ed] a finding that applicant [was] not
[intellectually disabled]” and “a rational finder of fact could still find that
applicant [was] not [intellectually disabled].”Ex parte Woods, 296 S.W.3d at
613; see Findings of Fact 85.
238. The Court concludes that Applicant is not “so impaired as to fall
within the range of [intellectually disabled] offenders about whom there is a
national consensus” against execution. Atkins, 536 U.S. at 317.
239. The Court concludes that this claim is procedural barred. In the
alternative, relief on this claim should be denied on the merits.

79

DISTRICT COURT NO. CR 09-066
(TEXAS COURT OF CRIMINAL APPEALS NO. WR-79,322-02)
Ex parte
BLAINE KEITH MILAM,
Applicant

§
§
§
§
§

IN THE 4TH JUDICIAL
DISTRICT COURT OF
RUSK COUNTY, TEXAS

ORDER
THE CLERK IS HEREBY ORDERED to prepare a transcript of all
papers in cause number CR 09-066 and transmit same to the Court of Criminal
Appeals, as provided by Article 11.071 of the Texas Code of Criminal
Procedure. The transcript shall include certified copies of the following
documents:
1.

All of the applicant’s pleadings filed in cause number CR09-066,
including his subsequent application for writ of habeas corpus;

2.

All of the Respondent’s pleadings filed in cause number CR09-066,
including the State’s Amended Response to Application for Writ of
Habeas Corpus;

3.

Any affidavits filed in cause number CR09-066;

4.

Any orders entered by this Court in this matter;

5.

Any Proposed Findings of Fact and Conclusions of Law submitted
by either the applicant or Respondent in cause number CR09-066;

6.

This court’s findings of fact, conclusions of law and order denying
relief in cause number CR09-066; and

7.

The indictment, judgment, sentence, docket sheet, and appellate
record in cause number CR09-066, unless they have been
previously forwarded to the Court of Criminal Appeals.

80

THE CLERK IS FURTHER ORDERED to send a copy of the court’s
findings of fact and conclusions of law, including its order, to applicant’s
counsel:
Micheal Jimerson
County Attorney, Rusk County, Texas
115 North Main
Henderson, Texas 75652
Lisa Tanner
Assistant Attorney General/Assistant County Attorney
Post Office Box 12548, Capitol Station
Austin, Texas 78711
Tomee Heining
Assistant Attorney General/Assistant County Attorney
Post Office Box 12548, Capitol Station
Austin, Texas 78711
Jennae R. Swiergula
Williams Boggs
Kathryn Hutchinson
Texas Defender Service
1023 Springdale Rd. #14E
Austin, Texas 78721
BY THE FOLLOWING SIGNATURE, THE COURT ADOPTS THE
STATE’S PROPOSED FINDINGS OF FACT AND CONCLUSIONS OF
LAW IN CAUSE NUMBER CR09-066.
SIGNED this _______ day of __________, 2019.
_______________________________
JUDGE PRESIDING
4TH JUDICIAL DISTRICT COURT
RUSK COUNTY, TEXAS

81

APPENDIX 3

253

254

APPENDIX 4

APPENDIX 5

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-79,322-02

EX PARTE BLAINE KEITH MILAM, Applicant

ON APPLICATION FOR POST-CONVICTION WRIT OF HABEAS CORPUS
AND MOTION FOR STAY OF EXECUTION
IN CAUSE NO. CR09-066 IN THE FOURTH JUDICIAL DISTRICT COURT
RUSK COUNTY
Per curiam. R ICHARDSON, J., filed a concurring opinion in which W ALKER, J.,
joined. Y EARY, J., filed a dissenting opinion. K ELLER, P.J., and S LAUGHTER, J.,
dissent.
ORDER
We have before us a subsequent application for a writ of habeas corpus filed
pursuant to the provisions of Texas Code of Criminal Procedure Article 11.071 § 5 and a
motion to stay applicant’s execution.1
In May 2010, a jury found applicant guilty of the December 2008 capital murder of

1

Unless otherwise indicated, all future references to Articles are to the Texas Code of
Criminal Procedure.

Milam - 2
a thirteen-month-old child. The jury answered the special issues submitted pursuant to
Article 37.071, and an issue asking if applicant was a person with mental retardation, and
the trial court, accordingly, set applicant’s punishment at death. This Court affirmed
applicant’s conviction and sentence on direct appeal. Milam v. State, No. AP-76,379
(Tex. Crim. App. May 23, 2012)(not designated for publication).
In his initial application for a writ of habeas corpus, applicant raised four
allegations asserting various instances of ineffective assistance of his trial and appellate
counsel. This Court reviewed the merits of the claims and denied relief. Ex parte Milam,
No. WR-79,322-01 (Tex. Crim. App. Sept. 11, 2013)(not designated for publication).
Applicant’s counsel filed this subsequent writ application in the trial court on
January 7, 2019. Applicant raises four claims in the application. In the first claim,
applicant asserts that current relevant scientific evidence related to the reliability of bite
mark comparison contradicts expert testimony presented and relied upon at trial. In the
second claim, applicant asserts that his execution would violate the Eighth and Fourteenth
Amendments because he is intellectually disabled. In the third and fourth claims,
applicant asserts that the State failed to disclose material exculpatory evidence, and he
was denied his right to present a defense in violation of due process.
Because of recent changes in the science pertaining to bite mark comparisons and
recent changes in the law pertaining to the issue of intellectual disability, we find that
applicant has met the dictates of Article 11.071 § 5(a)(1) with regard to his first two

Milam - 3
allegations. We therefore stay his execution and remand these claims to the trial court for
a review of the merits of these claims.
IT IS SO ORDERED THIS THE 14 th DAY OF JANUARY, 2019.
Do not publish

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-79,322-02

EX PARTE BLAINE KEITH MILAM, Applicant
ON SUBSEQUENT APPLICATION FOR A WRIT OF HABEAS CORPUS
AND MOTION FOR STAY OF EXECUTION
CAUSE NO. CR09-066 IN THE FOURTH JUDICIAL DISTRICT COURT
RUSK COUNTY
R ICHARDSON, J., filed a concurring opinion in which W ALKER, J., joined.
CONCURRING OPINION
Upon further review, Applicant may ultimately lose his battle to avoid the death
penalty given to him. But, based upon two claims he has raised in his subsequent writ
application, he is at least entitled to a stay. Applicant’s claim of intellectual disability has not
been assessed under what the Supreme Court deemed, in 2017, the “medical community’s
diagnostic framework.” Moore v. Texas, 137 S.Ct. 1039, 1043 (2017). He is legally entitled
to have his claim of intellectual disability evaluated under the proper standard. See Ex parte

Milam — 2

Moore, 548 S.W.3d 552 (Tex. Crim. App. 2018). In order for that to happen, we must grant
his request for a stay.
Preservation of error is not at issue here. Applicant did not fail to preserve error
regarding his claim of intellectual disability because his attorney failed to challenge the
Briseno factors at trial, on appeal, or in his first writ—all of those events predated the
Supreme Court’s 2017 decision in Moore v. Texas. Ex parte Briseno, 135 S.W.3d 1 (Tex.
Crim. App. 2004) was the state of the law when Applicant’s punishment was assessed and
when Applicant filed his initial writ application. There was no legal basis upon which to
challenge the use of the Briseno factors as the proper diagnostic standard for evaluating
claims of intellectual disability. Applicant did not forfeit then his right to a stay of execution
now simply because his trial and writ attorneys lacked clairvoyance. This Court does not
require an attorney to preserve error that is not error. And, if we are going to start requiring
defendants to preserve error by requiring them to raise an objection based upon minority
positions taken in unpublished concurring and dissenting opinions from this Court, and
especially if we are going to make that rule retroactive, then we should issue a published
majority opinion setting out a rational basis for doing so.
Applicant also raises a claim based upon new scientific bitemark evidence. Less than
a month ago, this Court recognized, in Ex parte Chaney, No. WR-84,091-01, 2018 WL
6710279 (Tex. Crim. App. Dec. 19, 2018), that the body of scientific knowledge underlying
the field of bitemark comparisons has evolved. Applicant claims that in his trial the State

Milam — 3

relied heavily on what is now faulty bitemark evidence. In light of Chaney, this claim
warrants further review.
This was a gruesome and brutal offense. The thirteen month old victim was savagely
and viciously tortured, beaten, and raped before she was murdered. But, we must grant all
defendants the process they are due under the Constitution. “The nature of the crime, no
matter how senseless or heinous, is not the criteria.” Boyle v. State, 820 S.W.2d 122, 137
(Tex. Crim. App. 1989) (“Law enforcement officers are not free to choose under what
circumstances they will remain true to the mandates of the Federal and State Constitutions.”);
Franklin v. State, 606 S.W.2d 818, 832 (Tex. Crim. App. 1978) (Phillips, J., dissenting)
(“Although the crime committed was heinous, the rule of law must still control our
determination.”).
Because Applicant has raised claims requiring further review, he is legally entitled to
a stay.
DELIVERED:
DO NOT PUBLISH

January 14, 2019

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-79,322-02

EX PARTE BLAINE KEITH MILAM, Applicant

ON SUBSEQUENT APPLICATION FOR A WRIT OF HABEAS CORPUS
AND MOTION FOR STAY OF EXECUTION
CAUSE NO. CR09-066 IN THE FOURTH JUDICIAL DISTRICT COURT
RUSK COUNTY
YEARY, J., filed a dissenting opinion.
DISSENTING OPINION
In this subsequent post-conviction writ application, Applicant claims he was
intellectually disabled at the time of his capital offense, and that his execution would
therefore violate the Eighth Amendment under Atkins v. Virginia, 536 U.S. 304 (2002). He
argues that his claim satisfies Article 11.071, Section 5(a)(3), in that he can prove by clear
and convincing evidence that no rational factfinder would fail to find him intellectually
disabled. T EX. C ODE C RIM. P ROC. art. 11.071, § 5(a)(3); Ex parte Blue, 230 S.W.3d 151, 162
(Tex. Crim. App. 2007). Applicant presented a prima facie case for intellectual disability at

MILAM — 2
the punishment phase of his capital murder trial in 2010, but the jury rejected it. He relies
primarily upon the same evidence of intellectual disability that was presented to the jury, but
argues that, when that evidence is considered in light of the recent opinion of the United
States Supreme Court in Moore v. Texas, 137 S. Ct. 1039 (2017), it satisfies the Blue
standard.
Appellant apparently seeks another opportunity to litigate the issue absent what the
Supreme Court regarded in Moore as the corrupting influence of the factors this Court
identified in Ex parte Briseno, 135 S.W.3d 1, 8–9 (Tex. Crim. App. 2004).1 In my view, the
evidence does not satisfy the Blue standard even if taken in light of Moore’s rejection of
Briseno. Nor do I agree with the Court today that Applicant’s subsequent writ application
“contains sufficient specific facts establishing that . . . the current (intellectual disability)
claim[ ] . . . could not have been presented previously in a timely initial application . . .
because the . . . legal basis for the claim was unavailable on the date [Applicant] filed the
previous application[.]” T EX. C ODE C RIM. P ROC. art. 11.071, § 5(a)(1).
It might be argued that Applicant’s intellectual disability claim was unavailable under
the law because the United States Supreme Court had not yet decided Moore as of the time
of Applicant’s initial writ application filed in April of 2013. But it does not appear that

1

It is unclear to me from Applicant’s current pleading whether he seeks an altogether new
punishment hearing before a jury, a new punishment hearing before a jury that is limited to the issue
of his intellectual disability, or simply a binding post-conviction declaration from this Court that he
cannot constitutionally be executed because, in the absence of any consideration of the Briseno
factors, he has definitively proven that he was intellectually disabled at the time of his offense.

MILAM — 3
Applicant has challenged Briseno at any earlier stage in these capital murder proceedings.
If there was any trial objection, it was not reiterated and pursued on direct appeal. Milam v.
State, No. AP-76,379, 2012 WL 1868458 (Tex. Crim. App. May 23, 2012) (not designated
for publication). And Applicant failed to complain in his initial writ application about the
jury’s rejection of his intellectual disability claim—in any respect, including any potential
erroneous reliance on Briseno by the State or the trial court. Ex parte Milam, No. WR79,322-01, 2013 WL 4856200 (Tex. Crim. App. Sept. 11, 2013) (not designated for
publication).
Was such an argument “unavailable” as of the date of his initial writ application, such
that Article 11.071, Section 5(a)(1), will excuse his failure to pursue it in his initial writ
application? Section 5 of Article 11.071, our statutory abuse-of-the-writ provision, elaborates
on what it means to say that a claim was legally “unavailable” as of a relevant earlier date.
Subsection (d) of Section 5 provides that “a legal basis of a claim is unavailable” under two
circumstances. T EX. C ODE C RIM. P ROC. art. 11.071, § 5(d). First, it would be “unavailable
. . . if the legal basis was not recognized by . . . a final decision of the United States Supreme
Court[.]” Id. To be sure, the Supreme Court did not “recognize” until last year that Briseno
did not rely on the proper diagnostic criteria for assessing intellectual disability for Eighth
Amendment purposes. This was well after Applicant filed his initial writ application. But,
according to the statute, a claim is also “unavailable . . . if the legal basis . . . could not have

MILAM — 4
been reasonably formulated from a final decision of the United States Supreme Court[.]” Id.2
Stated positively, this means that if the legal basis for a claim raised for the first time in a
subsequent writ application could reasonably have been formulated from Supreme Court
precedent when the initial writ application was filed, then “a court may not consider the
merits” of that claim in the subsequent application. T EX . C ODE C RIM. P ROC. art. 11.071, §
(5)(a).3
Applicant filed his initial application in 2012. Almost two years before that, a
separate opinion in a direct appeal of a capital murder conviction in this Court, reflecting the
view of three judges, took the position that the Briseno factors were not constitutionally

2

In essence, we have read Section 5(d) to declare a legal basis to be “unavailable” if it has
neither been recognized by Supreme Court precedent nor could it reasonably have been formulated
from Supreme Court precedent. See Ex parte Hood, 211 S.W.3d 767, 774 (Tex. Crim. App. 2007)
(“This ‘not . . . or’ phrasal structure is the equivalent of ‘nor,’ and indicates negation of both
elements in the series.”); id. at 775 (“Another point that deserves emphasis is that lack of recognition
is not enough to render a legal basis unavailable. If the legal basis could have been reasonably
formulated from a decision issued by a requisite court, then the exception is not met.”).
3

Last week the United States Supreme Court issued a per curiam opinion in Shoop v. Hill,
___ S. Ct. ___, No. 18-56, 2019 WL 113038 (Jan. 7, 2019), a case involving federal habeas review
of a state conviction under the terms of the Antiterrorism and Effective Death Penalty Act (AEDPA).
Shoop involved federal review of a state conviction that was upheld on direct appeal in state court
and in state post-conviction habeas corpus proceedings—all of which state-court proceedings predated the Supreme Court’s 2017 decision in Moore. Under the AEDPA, a federal habeas court may
not grant federal habeas corpus relief unless the state court’s judgments were contrary to “established
Federal law, as determined by the Supreme Court of the United States[.]” 28 U.S.C.A. § 2254(d)(1).
The Supreme Court held that the Sixth Circuit Court of Appeals erred to rely upon Moore to grant
federal habeas corpus relief, since Moore did not represent “clearly established” Supreme Court
precedent at the time the state court decisions were rendered. Nothing about the holding in Shoop
informs how this Court should construe our own statutory abuse-of-the-writ provisions, as embodied
in Section 5 of Article 11.071. Specifically, a Supreme Court decision need not “clearly establish”
a principle of law before a claim based upon that legal principle may be “reasonably formulated”
from that decision, under Section 5(d)’s definition of an “unavailable” claim.

MILAM — 5
sustainable. Lizcano v. State, No. AP-75,879, 2010 WL 1817772 (Tex. Crim. App. June 30,
2010) (Price, J., joined by Holcomb and Johnson, JJ., concurring and dissenting) (not
designated for publication). It was the position of these three judges that this Court’s
adoption of the Briseno factors was fundamentally at odds with the Supreme Court’s opinion
in Atkins itself, in which it first declared that execution of intellectually disabled offenders
violates the Eighth Amendment. See id. at *35 (arguing that to the extent that the Briseno
factors authorize a jury to consider non-diagnostic criteria, they are inconsistent with Atkins’s
apparent ratification of the diagnostic criteria utilized by the relevant mental health
community); Atkins v. Virginia, 536 U.S. 304, 308 n.3 (2002) (noting the then-current
diagnostic criteria for assessing mental retardation). At least as of 2010, it is clear enough
that an argument could reasonably have been fashioned—and was in fact being fashioned by,
among others, several judges of this Court—from Supreme Court precedent that Briseno
should be overruled.
Applicant should therefore have raised his intellectual disability claim in his initial
writ application. A majority of the judges on this Court would no doubt have rejected it then.
I would certainly have been open to an argument, post-Moore, however, that we should reopen Applicant’s initial writ application, had he raised the claim at that time since, in the
Supreme Court’s belated estimation, we would have been “wrong” to have rejected it. See
Ex parte Moreno, 245 S.W.3d 419, 428 (Tex. Crim. App. 2008) (holding that this Court may
reconsider its original disposition of an initial capital writ application “if there is a

MILAM — 6
compelling reason to believe that it may not have been ‘correct’ on original submission”).
But to authorize the convicting court to entertain Applicant’s claim now, although raised for
the first time in a subsequent writ application when the argument was readily available to be
raised in his initial writ application, would violate both the letter and certainly the spirit of
our codified abuse-of-the-writ provision in Section 5 of Article 11.071.
Applicant also raises a claim under Article 11.073, arguing that the science of forensic
odontology has changed since his trial in 2010, and relying on our recent opinion in Ex parte
Chaney, ___ S.W.3d ___, No. WR-84,091-01 , 2018 WL 6710279 (Tex. Crim. App. Dec. 19,
2018). T EX. C ODE C RIM. P ROC. art. 11.073. Suffice it to say that Chaney raised the issue in
an initial writ application, and that the facts of this case are, in any event, quite different.
Even assuming that Article 11.073 constitutes new law upon which Applicant may rely to
satisfy Section 5(a)(1) of Article 11.071, he has not made a prima facie showing, by a
preponderance of the evidence, that presentation of the new science at this trial would have
resulted in him not being convicted. T EX. C ODE C RIM. P ROC. art. 11.073, § (b)(2); T EX. C ODE
C RIM. P ROC. art. 11.071, § 5(a)(1); Ex parte Campbell, 226 S.W.3d 418, 422 (Tex. Crim.
App. 2007).
On these bases, I respectfully dissent to the Court’s order staying Applicant’s
execution and permitting him to pursue his untimely claims of intellectual disability and new
science.
FILED:
January 14, 2019
DO NOT PUBLISH

